<html>
<title> - PRACTICING LIKE WE PLAY: EXAMINING HOMELAND SECURITY EXERCISES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     PRACTICING LIKE WE PLAY: EXAMINING HOMELAND SECURITY EXERCISES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2007

                               __________

                           Serial No. 110-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-969                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    23
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    30
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    27
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    32
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    21

                               Witnesses

Mr. James Langenbach, Program Manager, Division of Health 
  Infrastructure Preparedness and Emergency Response, New Jersey 
  Department of Health and Senior Services:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Major General Steven Saunders, Director, Joint Doctrine, Training 
  and Force Development, National Guard Bureau:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Dennis R. Schrader, Deputy Administrator, National 
  Preparedness, Federal Emergency Management Agency, Department 
  of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Appendix

Additional Questions and Responses
  Responses from Mr. James Langenbach............................    41
  Responses from Major General Steven Saunders...................    43
  Responses from Mr. Dennis R. Schrader..........................    46


     PRACTICING LIKE WE PLAY: EXAMINING HOMELAND SECURITY EXERCISES

                              ----------                              


                       Wednesday, October 3, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Thompson, Cuellar, Dicks, 
Christensen, Etheridge, Dent, and Souder.
    Mr. Cuellar. [Presiding.] The Subcommittee on Emergency 
Communications, Preparedness and Response will be called to 
order.
    Good morning. First of all, I want to thank all the 
witnesses for being here with us as we examine the Department 
of Homeland Security's efforts to implement a national exercise 
program as required by the Post-Katrina Emergency Management 
and Reform Act. Our mission is to perform national emergency 
exercises in an effective way, while at the same time fostering 
interagency coordination.
    The federal government has specified that the Department of 
Homeland Security should also serve as a resource for state, 
local and federal agencies as they conduct and evaluate 
exercises at the regional, state and local levels. I look 
forward to hearing from Mr. Schrader as he discusses in detail 
how this goal is being accomplished and how long it will take 
to fully implement the program.
    In addition, this hearing will provide us with the 
opportunity to examine the effectiveness of top officials or 
the TOPOFF exercises. This discussion will be particularly 
timely in light of TOPOFF 4, which will occur later this month, 
I believe October 15 to 24 of this year. Each TOPOFF exercise 
involves a 2-year cycle of seminars, timing events and 
exercises culminating in a full-scale assessment of the 
nation's capacity to prevent, prepare for, respond to and 
recover from terrorist attacks involving weapons of mass 
destruction.
    I would like to hear from our witnesses on how TOPOFF 
exercises are coordinated across federal agencies and with the 
military, as well as with the state and local governments. This 
committee continues to be concerned about the process of 
evaluating previous TOPOFF exercises and the dissemination of 
lessons learned.
    In the past, DHS has told us they have been hesitant to 
provide a formal evaluation of TOPOFF exercises because of the 
need to protect sensitive information about efforts to thwart 
terrorist activities. While we clearly understand the need to 
protect sensitive information, after-action reports outlining 
lessons learned need to be circulated as widely as possible.
    I am also very interested in getting the perspective from 
Major General Saunders from the National Guard Bureau. When it 
comes to exercising, nobody does it more effectively, more 
thoroughly than our military and National Guard. I also believe 
we need to continue to examine the resource constraints the 
National Guard is under and whether that affects their ability 
to participate in emergency exercises.
    Finally, I look forward to hearing from Mr. Langenbach 
about his experience from a state perspective dealing with the 
Department of Homeland Security and TOPOFF 3 back in 2003.
    In closing, I believe that when it comes to emergency 
preparedness and response, our goal shouldn't be for our 
federal, state and local responders to learn on the job. They 
should have received the proper training, have a clear response 
plan in place, and have exercised this plan extensively. While 
we are making progress, I think we still have a way to go.
    I want to thank again the witnesses for their testimony.
    The chair now recognizes the ranking member, Mr. Dent, of 
the subcommittee, the gentleman from Pennsylvania, for an 
opening statement.
    Mr. Dent. Thank you, Mr. Chairman.
    Today's hearing continues our oversight of the Department's 
implementation of the Post-Katrina Emergency Management Reform 
Act of last year. This Committee was instrumental in crafting 
that Act's provisions, including the establishment of a 
comprehensive national exercise program.
    The National Exercise Program, or NEP as we refer to it, is 
currently being established within FEMA's National Preparedness 
Division. I am pleased that Dennis Schrader, who is the Deputy 
Administrator for National Preparedness, is here with us today 
to discuss the program.
    The NEP aims to provide strategic direction to national-
level homeland security exercises and ensure interagency 
coordination. It is also to provide guidance to exercises 
conducted at the local, State, and regional levels and assist 
in after-action reviews and implementation of lessons learned.
    Homeland security exercises form a crucial component of the 
national effort to strengthen preparedness at all levels of 
government for acts of terrorism and natural disasters. We must 
not only ensure that our first responders are properly equipped 
and trained, but we must also ensure that they practice 
responding to events in realistic scenarios and test the 
implementation of homeland security and emergency management 
plans.
    Today's discussion is timely, given that later this month 
TOPOFF 4 will occur in Oregon, Arizona, and Guam. TOPOFF 
exercises are congressionally mandated, full-scale exercises to 
test the nation's collective response to terrorist events. I 
did attend the TOPOFF 3 exercise that occurred in New Jersey 
and Connecticut. I spent some time in the Rutherford area of 
New Jersey during that exercise and learned a great deal from 
it.
    So I look forward to discussing TOPOFF today and the new 
National Exercise Program with our witnesses. In particular, I 
look forward to hearing how we can better facilitate accurate 
after-action reporting and the timely sharing of lessons 
learned from these exercises.
    I also look forward to discussing other ways that we can 
maximize the benefits of exercises for participants at all 
levels of government, as well as for the nonprofit and private 
sector partners. I also greatly appreciate the time our 
witnesses are taking to be with us this morning, so I look 
forward to receiving your testimony.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    Other members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    At this time, moving on to the testimony from the 
witnesses, I would like to again welcome the panel of 
witnesses. Our first witness is Mr. Dennis Schrader, the deputy 
administrator for the National Preparedness Directorate in 
FEMA. The Directorate is charged with overseeing the 
coordination and the development of the capabilities and tools 
necessary to prepare for natural and manmade disasters.
    Prior to his service at the Department of Homeland 
Security, Mr. Schrader was the director of the state of 
Maryland's Office of Homeland Security. Previously, Mr. 
Schrader spent 16 years at the University of Maryland Medical 
Center in a variety of leadership positions. Mr. Schrader began 
his professional career as U.S. Navy Civil Engineer Corps 
officer, and he retired from the Navy with the rank of captain.
    Our second witness is Major General Steven Saunders. Major 
General Saunders is director of the Joint Doctrine Training and 
Force Development for the National Guard Bureau, a position he 
has held since October, 2004. His responsibilities include 
doctrine development, training and exercise programs, education 
and professional development, and readiness assessment for the 
National Guard joint units and operations. Major General 
Saunders's military career began as an enlisted soldier in 
1972. In 1983, he joined the Army National Guard and has held a 
variety of distinguished assignments and received numerous 
awards and decorations for his service.
    Our third witness is James Langenbach, operation program 
manager with the New Jersey Department of Health and Senior 
Services, where he is responsible for emergency management 
functions of the department. Mr. Langenbach participated in 
TOPOFF 3 for the state of New Jersey. Prior to his service with 
the department, he was deputy chief and served 29 years with 
the New York-New Jersey Fire Department.
    Again, we are pleased to have all of you here with us. 
Without objection, the witnesses' full statements will be 
inserted in the record. Now, I ask each witness to summarize 
his statement for 5 minute, beginning with Mr. Schrader from 
the FEMA.

 STATEMENT OF DENNIS SCHRADER, DEPUTY ADMINISTRATOR, NATIONAL 
     PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, DHS

    Mr. Schrader. Thank you, Mr. Chairman and Ranking Member 
Dent and distinguished members of the subcommittee. It is a 
pleasure to appear before you today to discuss FEMA's National 
Exercise Program, including the Top Officials 4 full-scale 
exercise. As you know, Mr. Chairman, exercises provide homeland 
security officials an opportunity to practice critical 
prevention and protection response and recovery functions, 
evaluate the adequacy of existing capabilities, plans, policies 
and procedures, and test coordination and working relationships 
before an actual incident occurs.
    At the same time, exercises and the lessons learned from 
them allow officials at all levels of government to more 
effectively target their investments to continue to improve our 
national preparedness, including planning, training and 
equipping our emergency response community.
    To better organize and synchronize the conduct of exercises 
across federal, state, local, tribal and the private sectors, 
the Homeland Security Council, working with the Department of 
Homeland Security and FEMA, developed the National Exercise 
Program. The National Exercise Program provides a framework and 
assistive tools to ensure that federal, state and local 
exercises lead to concrete improvements in policy, plans and 
performance.
    The National Exercise Program unifies homeland security 
preparedness, exercise strategies, and links appropriate 
department and agency exercises to provide a single 
comprehensive exercise program. The National Exercise Program 
also uses a tiered system to differentiate the various types 
and sizes of exercises, ranging from tier one national-level 
exercises to other federal exercises under tier two and three, 
to tier four, which are the state, territorial, local, tribal 
and private exercises.
    The tier one national-level exercises focus on government-
wide strategies and policies such as administration transition, 
training, domestic and national disasters, national security 
and domestic terrorism. For example, in the upcoming TOPOFF 4 
exercise, approximately 15,000 federal, state, territorial and 
local officials will participate in a full-scale response to a 
multi-faceted terrorist threat.
    TOPOFF 4 is organized around national planning scenario 11, 
the use of a radiological dispersal device. TOPOFF 4 will 
include the participation of all appropriate cabinet-level 
secretaries or their deputies, and the activation of all 
necessary operations centers to accurately simulate a truly 
national response to a major terrorist incident.
    All five elements of the national operations center and the 
FEMA Region IX and X regional response coordination centers 
will be activated. In addition, the FEMA emergency response 
teams and the federal incident response support teams will 
activate in each of the venues and will simulate the 
establishment of a joint field office in accordance with the 
latest national response framework guidance.
    TOPOFF 4 will test the prevention, response and recovery 
capabilities in three venues: Guam, Arizona and Oregon, and 
across the federal, international and private sectors. It will 
allow for the synchronization of national, federal, state, 
local and private sector plans. It will test a common 
evaluation standard, and it will incorporate lessons learned, 
best practices and corrective actions identified in previous 
TOPOFF exercises.
    In addition to guiding the exercises themselves, the 
National Exercise Plan also includes two tools to enhance 
exercise planning at all levels. The Homeland Security Exercise 
and Evaluation Program provides a common language and concepts 
for designing, developing, conducting and evaluating all 
national-level federal, state and local exercises.
    The HSEEP tapes a building-block approach with each cycle 
of training and exercises, escalating in complexity, scale and 
subject matter. Detailed guidelines, a website and mobile 
training courses are also provided to help exercise planners 
implement HSEEP.
    Once the exercises are successfully planned and conducted, 
the Corrective Action Program provides a tool for 
systematically developing, prioritizing, tracking and analyzing 
corrective actions for improving exercises. Essentially, the 
CAP provides a systematic means to prevent recurring problems 
and identify potential corrective actions and lessons learned. 
Best practices and other information resulting from the 
Corrective Action Program are broadly shared through the 
lessons learned information sharing tool that is online.
    The National Exercise Program, Mr. Chairman, is a work in 
progress. It will only succeed through an ongoing, diligent, 
and ever-improving contribution of all involved. Departments 
and agencies must continue to input exercise events into the 
national exercise schedule, continue to adhere to HSEEP and 
CAP, and be proactive in providing material for the lessons 
learned system and fully fund their responsibilities within the 
National Exercise Program.
    To ensure that all partners fully understand their 
commitments under the program in advance, we are developing a 
5-year exercise schedule. This schedule will enable 
participants to adequately plan and finance their National 
Exercise Program responsibilities.
    In addition, as required under the Post-Katrina Act, we are 
working to more systematically integrate the regional 
administrators into our exercises and other preparedness 
efforts. Future TOPOFF exercises will focus on multiple FEMA 
regions, and we are working to identify other ways and 
available assets to enable the FEMA regions to more fully 
participate in exercise planning and coordination at all 
levels.
    The National Exercise Program structure and FEMA regional 
involvement will greatly enhance the coordination of exercise 
priorities across the entire federal government. At the same 
time, Mr. Chairman, a fully operational National Exercise 
Program will bring our nation one step closer to achieving a 
truly organized and unified preparedness exercise strategy.
    I look forward to working with you and the members of this 
subcommittee on these critical national preparedness issues. I 
would be happy now to answer any questions you or the member 
may have, sir.
    [The statement of Mr. Schrader follows:]

                   Prepared Statement Dennis Schrader

INTRODUCTION
    Thank you Mr. Chairman, Ranking Member Dent and distinguished 
members of the Committee. My name is Dennis Schrader and I serve as the 
Deputy Administrator for the National Preparedness Directorate (NPD) of 
the Federal Emergency Management Agency (FEMA). As you know, FEMA is a 
component of the Department of Homeland Security (DHS). On behalf of 
Secretary Chertoff and Administrator Paulison, it is a pleasure to 
appear before you today to discuss the National Exercise Program (NEP) 
and Top Officials 4 (TOPOFF) Full Scale Exercise.

NATIONAL EXERCISE PROGRAM: BACKGROUND
    Exercises play an instrumental role in preparing the Nation to 
respond to natural disasters, acts of terrorism and other public 
emergencies. In addition to providing homeland security officials an 
opportunity to practice critical prevention, protection, response and 
recovery functions, exercises are a forum for evaluating the adequacy 
of existing capabilities, plans, policies and procedures. Exercises, 
and the lessons learned from them, allow the Nation to more effectively 
target investments to continue to improve the broader cycle of 
preparedness including planning, training, and equipping our emergency 
response community.
    DHS, in coordination with the Homeland Security Council and in 
response to requirements of Homeland Security Presidential Directive 8 
(HSPD-8), the Homeland Security Act of 2002, and The Federal Response 
to Hurricane Katrina: Lessons Learned, developed and established the 
NEP. The purpose of the NEP is to support, through various exercises, 
the mechanisms to examine and improve the Nation's ability to prevent, 
prepare for, respond to and recover from terrorist attacks, major 
disasters and other emergencies. The focus of the NEP spans Federal, 
State, local, Tribal, and private sector efforts to organize and 
conduct synchronized exercise activities. An effective NEP will 
strengthen delivery of Federal preparedness assistance to State and 
local governments as well as improved preparedness capabilities of 
Federal, State, and local entities.
    NEP activities provide emergency responders and policymakers with 
the tools to plan, organize, conduct, and evaluate exercises as well as 
a disciplined approach to analyzing findings from exercises. The NEP 
not only provides opportunities to practice and test capabilities, 
policies, plans and procedures, but it also highlights potential 
shortfalls through the processes of after-action reporting and 
subsequent improvement activities.
    Prior to the NEP, there was no formal approach to prioritizing, 
scheduling and improvement planning for exercises. This lack of 
coordination resulted in activities that competed for resources, 
contributed to exercise fatigue, and were based on conflicting 
standards for exercise design, conduct and evaluation. The NEP is 
designed to provide a framework for prioritizing and focusing Federal 
and State exercise activities to best utilize departments', agencies' 
and jurisdictions' limited time and resources, as well as to ensure 
Federal, State, and local exercises lead to significant improvements in 
policies, plans and performance.
    The NEP is both a National and an interagency program. It serves as 
the principal mechanism for examining the preparation and efficiency of 
national leaders, their staffs, the organizations and systems they 
lead, as well as to examine and adopt policy changes. The NEP does not 
preclude or replace individual departments' and agencies' exercise 
programs. Rather, it is the overarching exercise program that unifies 
homeland security preparedness exercise strategies and links 
appropriate department and agency exercises to provide a single, 
comprehensive exercise program.
    The NEP and the supporting NEP Implementation Plan (I-Plan) reflect 
interagency coordination and broad State and local participation. Key 
components of the NEP I-Plan:
        <bullet> Require senior officers of the U.S. Government to 
        participate in named exercise activities;
        <bullet> Require Federal departments and agencies to properly 
        budget exercises and resources to ensure appropriate levels of 
        participation in exercises; and
        <bullet> Require that Departments, agencies, or offices 
        responsible for coordinating exercises adhere to the principles 
        of the NEP.
    At the State and local level, key elements of the NEP are designed 
to facilitate development of cooperative exercise coordination among 
and between Federal, State, local, and Tribal preparedness efforts. 
Language in preparedness grant programs specifically references and 
authorizes State and local activities that support development of 
integrated exercise activities.
NEP COMPONENTS
    The NEP consists of a series of national exercises projected on a 
five-year calendar. These exercises occur as either National-level 
exercises (NLEs) or Principles-level exercises (PLEs). The NEP uses a 
tiered exercise system to differentiate the various types and sizes of 
exercises. The four tiers are:
        <bullet> Tier I exercises have a U.S. Government-wide Strategy 
        and Policy Focus requiring participation of all appropriate 
        department and agency heads (or deputies) and all necessary 
        operations centers;
        <bullet> Tier II exercises are exercises that focus on Federal 
        strategy and policy, and involve appropriate participation 
        through the National Simulation Exercise Center, or as 
        determined by the involved departments' and agencies' 
        leadership. Tier II exercises take precedence over Tier III 
        exercise support (in the event of resource conflicts);
        <bullet> Tier III exercises are other Federal Exercises with 
        operational, tactical or regional organizational focus. 
        Participation is at the discretion of department or agency; and
        <bullet> Tier IV exercises are exercises that have a State, 
        Territorial, local, Tribal and/or private sector focus.
    The tiered system was designed to compel better participation in 
exercises. Previously, exercise activities were being significantly 
impeded due to limited agency participation. Exercises that involve the 
necessary departments and agencies for a given scenario create the most 
realistic response environment. When one or many departments or 
agencies are not able to participate, due to planning or resource 
constraints, the goal of an exercise is only partially realized, and 
therefore the results are not optimal.
    The NEP implements a strategic planning cycle to guide the Tier I 
exercises, or NLEs. Central to this cycle is the Five-Year Schedule, 
which will incorporate policy priorities into the strategic scheduling 
of NLEs, around which departments and agencies can establish supporting 
training and exercise activities to identify and refine issues 
beforehand. The Tier I NLEs will be executed on a four-year subject-
specific cycle with rotating focus on:
        <bullet> Administration Transition Training;
        <bullet> Domestic Natural Disasters;
        <bullet> National Security; and
        <bullet> Domestic Terrorism.
    To complement the more comprehensive NLEs defined above, the NEP 
calls for four annual discussion-based PLEs. The PLEs require the 
participation of all appropriate department and agency heads (or their 
deputies). One of the PLEs will serve as a preparatory event for an 
annual Tier 1 NLE.
    In addition to guiding exercise activities, the NEP provides 
several components to enhance exercise planning at all implementation 
phases. These programs include: the Corrective Action Program (CAP), 
the Homeland Security Exercise and Evaluation Program (HSEEP), and the 
HSEEP Toolkit.

Corrective Action Program
    Once exercises are successfully planned and conducted, the 
Corrective Action Program (CAP) provides for systematically developing, 
prioritizing, tracking, and analyzing corrective actions for improving 
exercises, and the planning, training, and equipment which drives the 
cycle of preparation. The CAP also provides transferability to real-
world incidents and policy discussions by employing a stakeholder-
driven approach to improvement planning at the Federal interagency, 
intra-DHS, and State/local levels. Essentially, the CAP provides a 
systematic means to prevent recurring problems and identify potential 
``corrective actions'' and ``lessons learned,'' which respectively 
incorporate the CAP System and the web-based Lessons Learned 
Information Sharing support systems (found at LLIS.gov). All lessons 
learned and best practices are broadly shared through the LLIS.gov on-
line tool. The CAP completes the cycle of preparedness by ensuring that 
exercise evaluation and real-world incidents consistently yield 
concrete advancement toward specified preparedness goals.

Homeland Security Exercise and Evaluation Program
    The HSEEP is the policy and guidance component of the NEP, and 
serves to standardize exercise design, development, conduct, and 
evaluation for all (National-level, Federal, State, and local) 
exercises by establishing common language and concepts to be adopted 
and used by various agencies and organizations. HSEEP aims to 
synchronize all exercises in the Nation in addition to providing tools 
and resources for States and local jurisdictions to establish self-
sustaining exercise programs. Through its development, HSEEP operates 
in accordance with the goals of the National Response Plan (NRP), and 
the National Incident Management System (NIMS). Exercise planners are 
provided numerous tools to support their efforts to design and conduct 
an HSEEP-compliant exercise including: the HSEEP Policy and Guidance 
Volumes, HSEEP website (hseep.dhs.gov), and the HSEEP Mobile Training 
Course.
    The HSEEP policy and guidance provides a building-block approach to 
assist planners in preparations for various types of exercises. The 
building-block approach focuses on exposing participants to a cycle of 
training and exercises that escalates in complexity, with each exercise 
designed to build upon the last, in terms of scale and subject matter. 
For example, a building-block series of exercises may include a 
seminar, which leads to a tabletop exercise, which leads to a full-
scale exercise (FSE). In many cases, this approach offers participants 
the opportunity to reexamine and review their plans, policies, and 
procedures prior to executing an exercise as well as to build working 
relationships essential for responding to a real world emergency. Many 
exercise planners have stated that the opportunity to build such 
relationships prior to a real world incident is invaluable and one of 
the major benefits to this approach. Thus, a strong planning foundation 
is achieved, prior to the actual exercise, which provides tremendous 
value to the preparedness cycle.

TOP OFFICIALS (``TOPOFF'') 4 Full-Scale Exercise

Overview
    This year's Tier I NLE exercise is Top Officials (or TOPOFF) 4, the 
National Domestic Counterterrorism Exercise Series that is the Nation's 
premier terrorism preparedness exercise program involving top officials 
at every level of government, as well as representatives from the 
international community and private sector. The TOPOFF 4 exercise, to 
be held October 15--20 of this year, is the cornerstone of the National 
Exercise Program (NEP) and is a Tier I National Level Exercise for FY 
2008.
    The TOPOFF program in general and TOPOFF 4 in particular are 
centered on U.S. Government-wide strategy and policy-related issues. In 
this sense, they are designed to address the priorities of the U.S. 
government in its entirety, and do not focus on individual issues at 
the department or agency level. To achieve this U.S. government-wide 
goal, TOPOFF 4 will be organized around one of the 15 national planning 
scenarios--Scenario 11, use of a radiological dispersal device (RDD). 
TOPOFF 4 will require Federal, State, local, and private sector players 
to respond to multiple, simultaneous RDD attacks on American soil.
    The exercise will be executed with the participation of all 
appropriate Cabinet-level secretaries or their deputies, and will 
include the activation of all necessary operations centers to 
accurately simulate a truly national response to these major terrorist 
incidents. This will include the utilization of all five elements of 
the National Operations Center and the FEMA Region IX and X Regional 
Response Coordination Centers. In addition, the FEMA Emergency Response 
Teams and Federal Incident Response Support Teams as well as DHS 
Situational Awareness Teams will activate in each of the venues and 
will simulate the establishment of a Joint Field Office in accordance 
with the latest National Response Framework guidance.
    For TOPOFF 4, approximately 15,000 Federal, State, territorial, and 
local officials will participate in a robust, full-scale response to a 
multi-faceted terrorist threat in three primary venues: Guam, Oregon, 
and Arizona. In each of these venues, exercise participants will be 
expected to mobilize their prevention and response capabilities, make 
difficult decisions, and carry out essential emergency response and 
recovery functions.
    In addition, the TOPOFF 4 exercise will use a single, common 
scenario in each of the venues to test prevention, response, and 
recovery capabilities; it will allow for the synchronization of 
National, Federal, State, local, and private sector plans; it will test 
a common evaluation standard; and it will incorporate lessons learned, 
best practices, and corrective actions identified in previous TOPOFF 
exercises.

Partners
    Our partners in this exercise include over 40 agencies, 
departments, and offices throughout the federal interagency community, 
the White House (i.e., Homeland Security Council (HSC) and National 
Security Council (NSC)), representatives from Oregon, Guam, and 
Arizona, several nongovernmental and private sector organizations, and 
several international partners. (Australia, Canada, and the United 
Kingdom have all agreed to participate in the exercise, and more than 
30 other countries and international organizations will serve as 
exercise observers.)

Goals
    The goals of TOPOFF 4 are threefold. First and foremost, to assess 
the Nation's capability to prevent, respond to, and recover from 
realistic and threat-based acts of terrorism. Second, to examine 
relationships between Federal, State, local, and Tribal jurisdictions 
and the private sector in response to a realistic and challenging 
series of integrated, geographically dispersed terrorist threats and 
attacks. And third, to use performance-based objectives to evaluate the 
interaction between Federal, State, local, and private sector emergency 
preparedness, prevention, response, and recovery plans, policies, and 
procedures.
    Achieving each of these goals under the umbrella of one national-
level exercise, allows the U.S. government--and its State, local, 
private sector, and international exercise partners--to test its 
ability to respond to a major incident, identify gaps in performance 
and take concrete steps towards improvement of the Nation's ability to 
prevent, respond to, and recover from terrorist attacks.

NEP: THE WAY AHEAD
    The NEP requires Departments and Agencies to fully fund their 
respective responsibilities within the NEP. Because that requirement 
falls after the proposed budget cycle, fiscal years 2007 and 2008 will 
be considered transitory and be devoted to attaining full operational 
capability to support the NEP Concept of Operations.
    Elements of the National Exercise Program already exist and are 
positively contributing to achieving a more unified preparedness 
exercise strategy, through tools such as the Nation Exercise Schedule 
(NEXS), CAP, and LLIS. Still, the NEP is a work in progress. As with 
any program involving myriad partners, the NEP is reliant on the full 
participation of its participants and adherents. NEP systems can be 
flawlessly designed, efficient, and user friendly, but will only 
succeed through an ongoing, diligent, and ever-improving contribution 
of all involved. Departments and Agencies will need to continue to 
input exercise events in NEXS, continue to adhere to the CAP, and be 
proactive in providing material for LLIS, for the NEP to be truly 
successful. The NEP will be strengthened and improved upon as partners 
continue to develop stronger adherence to its principles.
    Continued adherence to NEP principles and programs will yield 
constructive results for those involved, both financially and for 
planning purposes. For example, in the near future, exercise partners--
be they interagency partners or State and local governments--will have 
a clearer picture of what is expected of them for future exercises 
through the Five-Year Schedule. Once events have been determined and 
placed on the Schedule, exercise partners will understand their 
commitments years in advance, and such commitment will be successfully 
clarified incrementally as the time nears for the exercise's execution. 
The NEP will enable participants to adequately plan and finance their 
responsibilities.
    Over time, principles of the NEP will be universally adopted by the 
Federal interagency community and with State and local partners. A 
fully operational NEP will bring our Nation one step closer to 
achieving a truly organized and unified preparedness exercise strategy.
    The Post Katrina Emergency Management Reform Act requirement to 
integrate more systematically the FEMA Regional Administrators into 
preparedness efforts is being accounted for in the development and 
implementation of the National Exercise Program. Future TOPOFF exercise 
activities will focus on multiple FEMA regions. A comprehensive review 
of NEP activities is underway to identify assets that can be directly 
applied to ensure the FEMA Regions have a means to participate in 
exercise planning and coordination, across all NEP defined Tiers, 
including a prominent role in coordinating with States, local and 
Tribal jurisdictions within their designated areas.
    Going forward, we anticipate not only relying upon the regions to 
assist in developing future NLE activities, but to gain maximum benefit 
from the operational linkages the Regional Administrators and their 
Preparedness teams develop across the forward deployed `Federal family' 
located within their respective regions. We envision the NEP structure 
and FEMA Regional involvement will greatly enhance `vertical 
coordination' of exercise priorities across the entire Federal 
government.
    We also envision that FEMA regional preparedness teams will play a 
primary role in assessing preparedness within their regions. A key 
component of that responsibility will derive from observations taken 
from exercise activities that are reported and acted upon in concert 
with the Corrective Action Program.
    Mr. Chairman, this concludes my statement. I thank you for your 
attention and will be happy to answer any questions you may have.

    Mr. Cuellar. Thank you, Mr. Schrader.
    As we move on to our next witness, I certainly want to 
recognize the committee chairman, Chairman Thompson, for being 
here with us.
    I now recognize Major General Steven Saunders with the 
National Guard to summarize his statement for 5 minutes.

 STATEMENT OF MAJOR GENENERAL STEVEN SAUNDERS, DIRECTOR, JOINT 
DOCTRINE, TRAINING AND FORCE DEVELOPMENT, NATIONAL GUARD BUREAU

    General Saunders. Mr. Chairman, ranking members, and 
distinguished members of the committee, thank you for the 
opportunity to discuss homeland security exercises in 
preparation for domestic disasters, either natural or manmade.
    As you know, the National Guard has been actively 
participating in homeland security since the Revolutionary War. 
It has always been the first military responder in times of 
need, to natural disasters, civil disturbances, or attacks on 
our homeland. The National Guard's success in the performance 
of its historic dual mission, especially in the last several 
years, has increased the expectations for a sustained and 
coordinated National Guard response to crises at home.
    Starting in 2003, the chief of the National Guard Bureau, 
Lieutenant General Steven Blum, has acted aggressively to meet 
those expectations. With the support of Congress, the National 
Guard has created at least one WMD civil support team in every 
state and territory. We have built 17 chemical biological 
radiological nuclear and explosive device enhanced response 
force packages, each designed to aid in search and rescue, 
extraction, decontamination, and medical care in weapons of 
mass destruction incidents. And we built the joint incident 
site communication capabilities designed to enhance 
interoperability between military and civilian responders.
    Lieutenant General Blum also tasked my organization at the 
National Guard Bureau to provide education, training and 
exercise support for these new capabilities. The centerpiece of 
this effort is the Vigilant Guard Regional Exercise Program, 
which is designed by the National Guard Bureau to train and 
enhance the preparedness of our state-level Joint Force 
Headquarters and Joint Task Forces. Each of our Vigilant Guard 
exercise is designed to involve multiple states, ideally all of 
the states in a FEMA region.
    Beginning with an August, 2005 exercise in Ohio at FEMA 
Region 5, we have conducted seven such exercises so far. 
Subsequent exercises were conducted in Kansas FEMA Region 7, 
Texas FEMA Region 5, Utah FEMA Region 8, and last spring's 
exercise in Indiana, and more recently in Washington State FEMA 
Region 10 and Virginia FEMA Region 3.
    These exercises have grown from command post exercises 
concentrating on Guard information management process to robust 
state and local full-scale play. The exercise conducted in 
Indiana last May is a good example, especially notable as it 
was the largest homeland security exercise conducted, and we 
linked one or our Vigilant Guard exercises to NORTHCOM's, 
Northern Command's, Ardent Sentry Program, which included 
participation of personnel from the state of Indiana, 
Department of Homeland Security, FEMA Region 5, and the local 
responders from multiple counties.
    We came together to execute the kind of multi-level, multi-
jurisdictional exercise we believe is the future of homeland 
security exercises. For future training, the National Guard 
Bureau is now building exportable exercises for the states, 
based on the 15 national planning scenarios. Incidentally, I 
have a sample of the first three of those for the members if 
you would like to have a copy of those.
    As a companion to our exercise program, we have also built 
a National Guard Lessons Learned Program to capture and 
implement nationwide what we have learned at each of the 
regional exercises. As our exercise program has matured, we 
have made great progress in raising the level of knowledge and 
experience of both state National Guards and the National 
Incident management System, and the Incident Command Structure, 
as well as the national response framework. Also, we have 
increased integration with our partners in DHS and their 
Homeland Security Exercise and Evaluation Program, with U.S. 
Northern Command and Chairman of the Joint Chiefs of Staff 
Exercise Program.
    We commend the Department of Homeland Security for their 
work in building a foundation for future exercises. My staff 
has been particularly been involved in actively working with 
DHS in developments on the Homeland Security Exercise and 
Evaluation Program and its supporting HSEEP online toolkits, 
and implementation later this year, we look forward to that, of 
the National Exercise Program.
    I personally see some exciting opportunities and synergies 
for future exercises involving the National Guard where local 
and state civil authorities combine efforts with the federal 
and Title X military partners. We are especially interested in 
their Regional Exercise Program, which could connect civilian 
exercises with what we have been doing on the National Guard 
Bureau to increase regional cooperation and integration of 
supporting capabilities.
    The biggest challenge that the National Guard has faced in 
achieving National Exercise Program to be fully integrated with 
the Department of Defense and interagency partners has been 
resourcing. Beginning with the president's budget request for 
fiscal year 2008, the Vigilant Guard exercise program will 
finally be funded in the DOD budget. This will cover only 
planning and design of exercises. The actual execution and 
state participation still comes out of different unfunded 
resource requirements.
    The National Guard remains committed to work inside the 
Department of Defense and Department of Homeland Security and 
the states in finding training opportunities to enhance our 
preparedness within the capability afforded by present 
resources. On behalf of the Chief, National Guard Bureau, 
Lieutenant General H. Steven Blum, we commend your leadership 
and your attention on this important issue. I look forward to 
your questions, sir.
    [The statement of General Saunder follows:]

          Prepared Statement of Major General Steven Saunders

    Chairman Cuellar, Mr. Dent and distinguished members of the 
committee, thank you for the opportunity to discuss homeland security 
exercises in preparation to domestic disasters, natural or man-made.
    The National Guard has been actively participating in homeland 
security since the Revolutionary War. It has always been the first 
military responder in times of need, to natural disasters, civil 
disturbances, or attacks on our homeland. The National Guard's success 
in the performance of its historic dual mission, especially in the last 
several years, has increased the expectations for a sustained and 
coordinated National Guard response to crisis at home.
    Starting in 2003 the Chief of the National Guard Bureau, Lieutenant 
General Steve Blum, has acted aggressively to meet those expectations. 
With the support of Congress, the National Guard has created at least 
one WMD Civil Support team in every state and territory, 17 Chemical 
Biological Radiological Nuclear and Explosive (CBRNE) Enhanced Response 
Force Packages (CERFPs), designed to aid in search and extraction, 
decontamination, and medical care in WMD environments and Joint 
Incident Site Communication Capabilities (JISCCs), designed to enhance 
interoperability between military and civil responders.
    LTG Blum also tasked my organization, the National Guard Bureau-
Joint Doctrine, Training and Force Development Directorate--to provide 
education, training and exercise support for these new capabilities. 
The centerpiece of this effort is the Vigilant Guard Regional Exercise 
Program, which is designed by the National Guard Bureau to train and 
enhance the preparedness of our state level Joint Force Headquarters 
and Joint Task Forces in their mission to support civilian authorities. 
Each Vigilant Guard exercise is designed to involve multiple States--
ideally all of the States in a FEMA region. Beginning with an August 
2005 exercise in Ohio, at FEMA Region 5, we have conducted seven (7) 
exercises thus far. Subsequent exercises were conducted in Kansas/ FEMA 
Region 7; Texas / FEMA Region 5; Utah / FEMA Region 8, last Spring's 
exercise in Indiana, associated with NORTHCOM's Ardent Sentry, and, 
most recently, in Washington State / FEMA Region 10, and Virginia / 
FEMA Region 3. These exercises have grown from command post exercises 
concentrating on the Guard information management tasks to robust State 
and local full scale play. The exercise conducted in Indiana last May 
is especially notable. It was the largest homeland security exercise 
ever conducted of its type. We linked one of our Vigilant Guard 
exercises to NORTHCOM's Ardent Sentry, which included participation of 
personnel from the State of Indiana, Department of Homeland Security 
(DHS), FEMA Region V, and the local responders from multiple counties. 
We came together to execute the kind of multi-level, multi-
jurisdictional exercise we believe is the future of Homeland Security 
exercises. For future training, the National Guard Bureau is now 
building exportable exercises for the States, based on the fifteen (15) 
National Planning Scenarios.
    As a companion to our exercise program, we have built a National 
Guard Lessons Learned Program to capture and implement nationwide what 
we have learned at each regional exercise. As our exercise program has 
matured we have made great progress in raising the level of knowledge 
and experience of each State National Guard on the National Incident 
Management System, the Incident Command System and the National 
Response Plan. Also, we have increased integration with our partners in 
DHS and their Homeland Security Exercise and Evaluation Program 
(HSEEP), NORTHCOM and Chairman of the Joint Chiefs of Staff Exercise 
Program.
    We commend the Department of Homeland Security for their work in 
building a foundation for future exercises. My staff has been actively 
monitoring the developments in DHSs HSEEP, its supporting HSEEP online 
toolkit and the implementation this year of the National Exercise 
Program (NEP). I see some exciting opportunities and synergies for 
future exercises involving the National Guard where local and state 
civil authorities combine efforts with our federal and military 
partners. We are especially interested in DHS's Regional Exercise 
Program, which could connect the civilian exercises with what we have 
been doing on the National Guard side to increase regional cooperation 
and integration of supporting capabilities.
    The biggest challenge the National Guard has faced in achieving a 
National Exercise Program fully integrated with the Department of 
Defense and inter-agency partners has been resourcing. Beginning with 
the President's Budget request for Fiscal Year 2008, the Vigilant Guard 
exercise program will finally be funded in the DoD budget. This will 
cover planning and design of exercises.
    The National Guard remains committed to work inside the Department 
of Defense and with the Department of Homeland Security and States in 
finding training opportunities to enhance our preparedness within the 
capability afforded by present resources. On behalf of the Chief, 
National Guard Bureau, LTG H Steven Blum, we commend your leadership 
and attention on this important issue.

    Mr. Cuellar. Thank you, Major General Saunders for your 
testimony.
    At this time, we recognize Mr. James Langenbach with the 
New Jersey Department of Health and Senior Services to 
summarize his statement for 5 minutes.

  STATEMENT OF JAMES LANGENBACH, PROGRAM MANAGER, NEW JERSEY 
            DEPARTMENT OF HEALTH AND SENIOR SERVICES

    Mr. Langenbach. Thank you, Mr. Chairman, and thank you for 
the honor of coming her to testify in front of your committee.
    I am here to discuss the TOPOFF 3 exercise and the actions 
taken by the state of New Jersey to improve its security and 
emergency preparedness and its ability to respond to 
bioterrorism attacks and other emergency situations.
    Since T-3, New Jersey has improved its preparedness posture 
through a statewide reorganization designed to provide a 
comprehensive, all-hazards approach to emergency management. 
Through the establishment of the Office of Homeland Security 
and Preparedness by Governor Corzine in March of 2006, New 
Jersey has taken a new direction in homeland security which has 
resulted in improved cooperation with other federal, state and 
local agencies and a change in the way the state approaches 
preparedness.
    Governor Corzine has also pledged significant resources to 
emergency preparedness, training, education and exercises, as 
well as studies and evaluations. Towards that end, the state is 
committed to supporting a robust exercise program. I would like 
to take the next few moments to describe how T-3 played out in 
the state and how we participated in the planning process, what 
lessons we learned, and how we plan to remediate shortfalls 
which were uncovered during T-3.
    On April 4 through 8, 2005, New Jersey joined Connecticut, 
Canada and Great Britain in what was then the largest 
counterterrorism exercise ever conducted. Just a quick over--on 
Saturday, April 2, three sport utility vehicles departed a 
fictitious biolaboratory in New Jersey, driven by members of a 
terrorist organization. These vehicles were targeting New York 
City. Their attack plan was interrupted and they released it in 
a region of New Jersey.
    This resulted in an outbreak of pneumonic plague, which by 
Friday, April 8, had spread to every corner of the state. 
Thirty-thousand people had been infected and over 8,000 died. 
As you can imagine, the ramifications of this attack were 
horrific. Our health care delivery system was overwhelmed. The 
emergency management structure struggled to maintain essential 
services. The large number of fatalities taxed the ability of 
our medical examiner's office. Besides the human toll, the 
state suffered huge economic losses. The recovery period 
continued 6 months after the attack and beyond.
    At this time, Mr. Chairman, I would like to highlight some 
of the planning activities that went into this exercise that I 
just described. In February of 2004, the New Jersey Domestic 
Security Preparedness Task Force endorsed a proposal by the 
Department of Health and Senior Services to participate in T-3. 
The task force also approved the expenditures associated with 
the exercise.
    The state of New Jersey, in conjunction with the U.S. 
Department of Homeland Security, began the planning process 14 
months prior to the full-scale exercise. In this effort, we 
were full partners with DHS and the contractors that were hired 
by DHS to support the exercise. We developed 13 overarching 
goals. I won't take the time of the committee now to read 
these, but they are in my written testimony. You can imagine, 
they covered the gamut of health care and emergency management.
    During the planning process, we had monthly meetings with 
DHS, the support contractors and the state's planning team. 
These meetings were mirrored at the county and municipal 
levels. So what we did at the state and federal level, we 
mirrored at the county and municipal level.
    Running parallel with the exercising planning effort, DHS 
sponsored a series of national seminars. These seminars were 
referred to as ``building block events'' and brought together 
nationally renowned experts in their fields, along with their 
state counterparts to focus on topical areas related to the 
exercise, such as biological terrorism, chemical terrorism, 
public information, and a national response plan. In addition 
to these national seminars, each state could, and did, opt to 
conduct a state-level seminar for their locals.
    All the planning and the exercise itself did not come 
without costs. As a participant, each state was required to 
provide funding for its share of the exercise expenses. A 
memorandum of agreement was negotiated between DHS and the 
state of New Jersey. In New Jersey's case, the state share came 
from multiple sources. Our Office of Domestic Preparedness 
grants, UASI funding, Centers for Disease Control and 
Prevention, and Health Resources and Services Administration 
all provided funding for the exercise. Our total budget was 
$964,000 and change.
    Evaluation--as with any exercise, the evaluation portion is 
every bit as important as the conduct of the exercise itself. 
This is the reason we conduct exercises, to expose our 
shortcomings in a simulated environment as opposed to during a 
real event. The evaluation of all the moving parts of T-3 was a 
huge logistical challenge. Due to the scope of the exercise, 
every county, every hospital, every venue had data collectors 
on-site to capture the actions of the participants in response 
to the scenario presented to them. These observations were 
collected, analyzed and compared against existing plans, 
policies and procedures.
    Again running parallel with the federal effort, New Jersey 
developed an after-action report and a specific improvement 
action plan which is being implemented at this time.
    I am just about out of time here.
    Some of the things that we worked on--information 
management--we discovered gaps in our information sharing with 
the federal partners during the exercise to the point where 
some of our emergency management planners were operating in an 
information vacuum and decisions were made based on incomplete 
information. Since that time, we have stood up a regional 
operations intelligence center which is staffed by state and 
federal partners, and designed to collect, analyze and fuse 
intelligence into actionable information.
    Federal and state coordination--again, Governor Corzine, 
when he created the Office of Homeland Security and 
Preparedness, cast it with that specific process, to coordinate 
our activities with the federal government.
    The last thing I would like to say, or a couple of things 
if I can, one of them was an extra added activity during T-3 
was Operation Exodus, where we tested the ability for the 
National Disaster Medical System to move patients out of New 
Jersey hospitals to free space up for the people that were 
infected with pneumonic plague. The lessons learned from this 
Operation Exodus were carried out during evacuations or during 
Katrina and Rita.
    Finally, after-action reporting--reporting the results of 
an exercise is a tightrope that we in exercise design have to 
walk. If nothing else, our enemies have demonstrated their 
ability to learn from us, so any report that highlights 
shortfalls or gaps could, and most likely would, be exploited 
by them. That being said, there should be a way that we can 
take the lessons we learned from TOPOFF, and for that matter 
any exercise, and benefit everyone.
    One method we in New Jersey have developed is the 
translation of the after-action and improved-action plans into 
best practices recommendations. We share those across the 
state.
    Once again, Mr. Chairman, thank you very much for the 
opportunity to provide this testimony. And also I would like to 
thank you and Congressman Thompson for your commitment to 
ensure that our first responders are equipped to respond in 
times of emergency.
    At this time, I would be glad to address any questions you 
or the committee membership may have.
    [The statement of Mr. Langenbach follows:]

             Prepared Statement of James Arthur Langenbach

Opening Remarks:
    Congressman Cuellar I am pleased to be here today to discuss the 
TOPOFF 3 exercise and the actions taken by the State of New Jersey to 
improve its security and emergency preparedness, and its ability to 
respond to bio-terrorism attacks and other emergency situations.
    Since T-3, NJ has improved its preparedness posture through a 
statewide reorganization designed to provide a comprehensive, ``all-
hazards'' approach to emergency management.
    Through the establishment of the Office of Homeland Security and 
Preparedness, by Governor Corzine in March 2006, NJ has taken a new 
direction in Homeland Security which has resulted in improving 
cooperation with other Federal, state, and local agencies and a change 
in the way the state approaches Preparedness.
    Governor Corzine has also pledged significant resources to 
emergency preparedness training, education, and exercises, as well as 
to studies and evaluations.
    Toward that end, the state is committed to supporting a robust 
exercise program.
    The Office of Homeland Security and Preparedness provides funding 
for a State Exercise Support Team. Staffed with individuals from the 
New Jersey State Police, Department of Military and Veterans Affairs, 
Division of Fire Safety, and the Department of Health and Senior 
Services, this unit provides exercise support for UASI and ODP required 
exercises.
    In addition, the Department of Health and Senior Services supports 
an exercise team which provides assistance to local public health 
agencies and healthcare facilities for with their CDC and HRSA funded 
exercises.
    These two teams synchronize their efforts through an annual 
exercise strategy meeting.
    Both teams were in place during TOPOFF 3 and their membership 
provided the core of the state's planning group.
    I would like to spend the next few moments describing how T-3 
played out in NJ, how we participated in the planning process, what 
lessons we learned, and how we plan to remediate shortfalls that were 
uncovered during T-3.

NJ T-3 Exercise Overview:
    On April 4--8, 2005 New Jersey joined Connecticut, Canada, and 
Great Britain in what was then, the largest counter-terrorism exercise 
ever conducted.
    On Saturday, April 2nd three sports utility vehicles set out from a 
fictional clandestine bio-laboratory in central New Jersey. Driven by 
members of a fictitious terrorist organization, these vehicles had been 
modified to disperse a biological agent, pneumonic plague, against 
their target, New York City. Their attack plan was interrupted, and 
they released the agent in New Jersey.
    This resulted in an outbreak of pneumonic plague that, by Friday, 
April 8th, had spread to every corner of the state. In that time frame 
over 30,000 people had been infected and over 8,000 died.
    Throughout the course of the exercise the state's emergency 
operations center provided command ,control, and coordination of the 
states response. During the week each of the state's 84 acute-care 
hospitals was engaged. The state received the assets of the Strategic 
National Stockpile consisting of pharmaceuticals which were transported 
to 22 locations throughout the State to facilitate public distribution 
through the use of points of dispensing or PODS.
    As you can imagine, the ramifications of this attack were horrific. 
Our healthcare delivery system was overwhelmed. The emergency 
management structure struggled to maintain essential services. The 
large number of fatalities taxed the ability of our medical examiners 
office.
    Besides the human toll, the state suffered huge economic losses. 
The recovery period continued 6 months after the attack and beyond.
    While NJ's primary responsibility in the event of an emergency is 
to ensure the safety of its citizens, there were decisions to be made 
that had impact at the national level. The ``Robert T. Stafford 
Disaster Relief and Emergency Assistance Act,'' Public Law 93-288, as 
amended, which was enacted to support State and local governments when 
the President has declared a disaster proved to be ineffective when 
requesting and obtaining Presidential disaster assistance during a 
biological event.
    At this time, Congressman, I would like to highlight some of the 
planning activities that occurred in preparation for TOPOFF 3.

    NJ T-3 Planning Effort:
    In February of 2004, the New Jersey Domestic Security Preparedness 
Task Force, endorsed a proposal by the New Jersey Department of Health 
and Senior Services to participate in TOPOFF 3. The approved scenario 
was to test NJ's response and recovery to a terrorist biological 
incident. The DSPTF also approved any expenditures associated with the 
exercise.
    The state of New Jersey, in conjunction with the US Department of 
Homeland Security, began the planning process 14 months prior to the 
exercise.
    In this effort we were full partners with the Departments and 
Agencies of the Federal Government that were participating in the 
exercise, along with contractors hired by DHS.
    The state presented the T-3 planners with its exercise goals and 
objectives. These were developed by a core state planning team composed 
of representatives from departments such as the Office of Emergency 
Management, Health and Senior Services, Environmental Protection, 
Attorney General and others.
    This state level core planning team was augmented by planning teams 
at the county and municipal levels as well as facility staff, including 
those in the hospitals that developed discrete aspects of the exercise.

    Overarching Goals
        <bullet> Risk Assessment and Implementation of a Public 
        Information Program to effectively address the consequences of 
        the exercise scenario/hazard.
        <bullet> Assess the ability of state and local government to 
        establish, conduct, and administer effective and efficient Mass 
        Prophylaxis
        <bullet> Managing the logistics of the issuance of Quarantine 
        and/or Isolation Orders, and/or Travel Restrictions.
        <bullet> Stress and evaluate hospital Surge Capacity
        <bullet> Determine the appropriate and/or necessary staffing 
        patterns for the ``comprehensive'' health care system.
        <bullet> Examine the sufficiency of existing Continuity of 
        Government and Continuity of Business Operations
        <bullet> Test the Case-Contact Epidemiological processes/
        procedures
        <bullet> Engage and evaluate the in-state resources and federal 
        support for Mortuary Care.
        <bullet> Evaluate the effectiveness of the Emergency Management 
        Assistance Compact (EMAC) among state governments.
        <bullet> Exercise the Disaster Declaration Process, as related 
        to a coordinated, multi-level, governmental response and 
        recovery effort, in light of the on-going federal efforts to 
        re-formulate policy regarding the National Response Plan (NRP 
        &/or INRP) and the National Incident Management System (NIMS).
        <bullet> Allow for the comprehensive assessment of existing 
        strategies for the provision of Mental Health services for both 
        emergency workers and the general public.
        <bullet> Explore the multi-level, operational coordination of 
        Intelligence and Investigative authorities
    The state level core planning team was augmented by planning teams 
at the county and municipal levels as well facility staff, including 
those in the hospitals that developed discrete aspects of the exercise.
    Select working groups were formed to work with their federal 
partners in developing the scenario, intelligence play, public 
information, volunteers, logistics, security and other aspects of the 
exercise.
    Senior representatives from state departments and agencies provided 
policy oversight to the planning team. Issues such as funding, labor 
agreements, and public information were addressed by this group.
    Monthly meeting with DHS, the support contractors and the state's 
planning team were conducted to coordinate the development efforts. 
These meeting were mirrored at the county and municipal level.
    Running parallel with the exercise planning effort, DHS sponsored a 
series of national seminars. These seminars, referred to as building 
block events, brought together nationally renowned experts in their 
fields, along with their state counterparts, to focus on topical areas 
related to the exercise such as; biological terrorism, chemical 
terrorism, and public information. Each state as well as the District 
of Columbia played host to one of these seminars. In addition, each 
state could, and did, opt to conduct a state level seminar on topics 
similar to the national level events.
    Equally challenging was the recruiting of a sufficient amount of 
volunteers as role players of patients in hospitals, individuals 
seeking prophylactic medications, and act as ``worried well'' who would 
flood the hospitals, clinics, and doctors offices. To achieve this 
goal, a separate working group was formed at the state and county/
municipal level to confront and solve the challenges presented by the 
recruitment issues. Adding to this challenge was requirements from DHS 
that all exercise volunteers submit to a criminal history record check.
    All of the planning, the events, and the exercise itself did not 
come without costs. As a participant, each state was required to 
provide funding for its share of the exercise expenses. A memorandum of 
agreement, (MOA), was negotiated between the state and DHS. This MOA 
outlined each party's fiscal obligations.
    In New Jersey's case, the state's share came from multiple sources. 
The state's ODP and UASI funding streams as well as CDC and Health 
Resources and Services Administration grants provided the funding. The 
state's budget for T-3 was approximately $964,000.00. Budget oversight 
was the responsibility of the senior planning group.

Evaluation
    As with any exercise, the evaluation portion is every bit as 
important as the conduct of the exercise itself. This is the reason we 
conduct exercises, is to expose our short comings in a simulated 
environment as opposed to during a real event.
    The evaluation of all of the ``moving parts'' of T-3 was a huge 
logistical challenge. Due to the scope of the exercise, every county, 
every hospital, every venue had ``data collectors'' on site to capture 
the actions of the participants in response to the events presented by 
the exercise scenario. These observations were collected, analyzed and 
compared against the existing plans, policies and procedures of the 
participants. Again, running parallel with the federal effort, New 
Jersey developed an after-action report and a specific improvement 
action plan which is being implemented at this time.

Lessons Learned
Some key lessons learned:
    The following indications for needed improvement, not 
coincidentally related to one or several of our Exercise Goals, were 
revealed in our after-action reviews and are thought to be the most 
significant. With each I've illustrated the steps we are, or have taken 
to address each area:
        <bullet> Information Management, we discovered gaps in the 
        information sharing process especially at the federal state 
        level. During the exercise senior New Jersey emergency 
        management planners operated in an information vacuum and 
        decisions were made based on incomplete information.
                The remediation of this information management gap has 
                been addressed by the development a management system 
                that is consistent with HSPD 5.
                In 2007 we dedicated a Regional Operations Intelligence 
                Center which is staffed with state and federal 
                personnel and is designed to collect, analyze, and fuse 
                intelligence into actionable information.

        <bullet> Information Technology collaboration, specifically a 
        review of the various systems of data management / data sharing 
        that are currently operating independent of each other due to 
        agency and/or organizational specific purposes.
                As a result of T-3 the Department of Health and Senior 
                Services has developed an all-hazards situational 
                awareness platform, Hippocrates, which provides the 
                state's emergency management planners with a real time 
                common operating picture of the state of health care 
                and public health.
                We are now taking steps to integrate each state 
                department's information management systems into a 
                single, interoperable, platform.

        <bullet> Federal-State coordination in support of response/
        recovery operations. Specifically, under the new National 
        Response Plan (NRP) & the National Incident Management System 
        (NIMS), and with certain regard to the Joint Field Office (JFO) 
        operational processes, where resource requests were delayed, or 
        seemingly not forthcoming.
                In March of 2006 Governor Corzine created the Office of 
                Homeland Security and Preparedness (OHS&P) and tasked 
                this office with coordinating the state's emergency 
                management planning activities, to include the 
                interaction and interoperability with our federal 
                partners.
        OHS&P has taken the lead in integrating the new National 
        Response Framework into the state's planning, training, and 
        exercising activities.

        <bullet> Modifications to the Federal Disaster and Emergency 
        Relief Act (The Stafford Act), to address the issue of enabling 
        Individual Assistance (IA) funds to be made available to states 
        (and local governments) when contending with the consequences 
        of a biological/public health disaster.
                The State's legislative delegation is working to modify 
                these programs to address the unique challenges 
                presented by a biological disaster.

        <bullet> Development of policy and procedure to govern the 
        identification, credentialing and operational deployment of 
        essential personnel from the public and private sector.
                The Office of the Attorney General has formed a 
                committee to develop a statewide credentialing system. 
                The state has developed a roadmap forward but is 
                hampered by insufficient funding.

        <bullet> Medical Surge Capacity was demonstrated during the 
        exercise to be critical gap. Hospital bed space particularly 
        for alternate care (Isolation/quarantine) was at a premium.
                Using UASI, and other funding sources, New Jersey has 
                acquired three mobile alternate care facilities and is 
                in the process of purchasing a mobile emergency care 
                facility.

        <bullet> Conceptual and operational modifications to the 
        State's Mass Prophylaxis Plan.
                We have initiated a 1st Responder Prophylaxis Plan to 
                provide medications to these individuals and their 
                families in the event of a biological agent attack or a 
                naturally occurring event (pandemic influenza).
                We are in the process of developing a similar program 
                for the private sector.

        <bullet> Private Sector inclusion in the event management 
        process, to include information sharing, prioritization of 
        essential services/essential employees, resource provisions and 
        decision making processes directly involving the various 
        sectors of business and industry.
                Private Sector inclusion in the event management 
                process, to include information sharing, prioritization 
                of essential services/essential employees, resource 
                provisions and decision making processes directly 
                involving the various sectors of business and industry.
                The private sector now occupies a position in the State 
                Emergency Operations Center and is a full partner in 
                our planning, training, and exercising programs.

        <bullet> Additional Activities
        During the T-3 exercise we exercised the Metropolitan Medical 
        Response System in coordination with the US Department of 
        Health and Human Services, the Air National Guard and the 
        state's Emergency Medical Services Task Force.
        We coordinated the forward movement of 100 hospitalized, un-
        infected individuals from hospitals in New Jersey to hospitals 
        in Texas. Lessons learned from this exercise were utilized in 
        real world operations, during hurricanes Katrina and Rita.

<bullet> Benefits
        TOPOFF III's greatest contributions to our state were the 
        working relationships forged through the design process. The 
        process of developing, conducting, and evaluating the exercise 
        ``forced'' the coordination of multiple state, local, and 
        federal departments and agencies. This coordination was an 
        exercise unto itself and in the end the state was better of for 
        having done so.
        As each state and local department and agency examined their 
        existing plans, policies, and procedures during the exercise 
        design phase, gaps were identified. These gaps were addressed 
        with new policies and procedures and then they were exercised 
        during TOPOFF. Once again the state came away better prepared.
        Though we struggled, at times during the exercise, to 
        communicate our needs and understand some of the federal 
        government's responses, we were learning about their systems, 
        procedures and decision-making influences. The key to all of 
        this is learning from doing, and learning from your mistakes.

After-Action reporting
    Reporting the results from an exercise is a tightrope that we in 
exercise design have to walk.
    If nothing else, our enemies have demonstrated their ability to 
learn from us, so any report that highlights shortfalls or gaps could, 
and most likely would, be exploited by them.
    That being said, there has to be a way that the lessons we learned 
during TOPOFF, and for that matter any exercise, can benefit everyone. 
One method we're developing is the translation of the after-action and 
improvement action plans into best practices recommendations.
    Once again Congressman Cuellar, I'd like to thank you for the 
opportunity to provide this testimony to your committee. Also I'd like 
to thank you and Congressman Thompson for your commitment to insure 
that our 1st responders are trained and equipped to respond in times of 
emergency.
    At this time I'd be glad to address any questions you or the 
committee membership may have.

    Mr. Cuellar. Thank you. I thank the witnesses for their 
testimony, all of them. I would like to remind each member that 
he or she will have 5 minutes to question the panel.
    I now recognize myself for questions.
    The first set of questions goes to Mr. Schrader. As you 
know, the stated goal of the leadership of the Department of 
Homeland Security was to complete a rewrite of the national 
response plan by June 1 of 2007. As you know, the draft of the 
national response framework was not released for comments until 
September 10 of 2007. Will the federal, state and local 
officials be exercising on the new national response framework 
during TOPOFF 4? And if not, do you believe it is somewhat 
counterproductive for us to be exercising on a plan that will 
soon be outdated?
    Mr. Schrader. Thank you, Mr. Chairman. The intent, or the 
actual way we are doing this is the national response plan is 
in effect and continues to be in effect, and the exercise is 
designed based on the national response----
    Mr. Cuellar. The new one?
    Mr. Schrader. No, the existing plan, because the framework 
has not been adopted because we are still in the comment 
period. That will go on here for another period of time. 
However, having said that, much of the information that is in 
the national response plan regarding how operations will work 
within the federal emergency support function annexes--all of 
that still exists as operational and is online in the national 
response framework. The framework, however, both the online 
documentation and the new document, are still open for comment.
    Mr. Cuellar. What is the cost to do this TOPOFF exercise, 
roughly?
    Mr. Schrader. It is approximately $25 million to design and 
run the various components. Of course, it is a cycle, sir, in 
that it has been a 2-year period, so there have been a series 
since 2 years ago of design meetings, seminars. There was a 
command post exercise. There have been tabletop exercises with 
the key deputies, all the deputies in the federal family. So 
there have been a number of activities. But that whole series 
of activities, and the post-exercise activities will be about 
$25 million.
    Mr. Cuellar. Knowing that we are going to spend roughly $25 
million on an exercise that are on a cycle, and I understand 
there is a deadline, I mean, a comment period right now.
    Mr. Schrader. Yes.
    Mr. Cuellar. What is your response on spending $25 million, 
roughly $25 million, on a plan that will soon be outdated?
    Mr. Schrader. Well, my sense is that, from what I know 
having been at the state level and what is in the existing 
national response plan--let me back up a step. When the plan 
was originally released in 2004, the intent was to do an update 
in a year. Of course, we all know that a year later Katrina 
happened, and that was pushed back because we wanted to 
incorporate the lessons learned from Katrina. So that process 
has been ongoing.
    But the fact of the matter is that the material that is the 
body of the NRP is fundamentally in the national response 
framework. The issues that came out of the old plan from 2004 
was that it was too large in a paper binder. It was hard to 
read. It didn't have an executive summary framework. It didn't 
start with the premise that all disasters are local. So it has 
been rewritten for executive-level understanding of how the 
process actually works.
    Now, there are other changes that are being debated within 
it, but incorporated through a work group. There were 12 work 
groups that generated many, many comments, and there were 17 
issues. So there has been a lot of work that has gone into it. 
But the fact of the matter is, the existing national response 
plan that is in effect now does work. We are just looking to 
improve on it with the new framework.
    Mr. Cuellar. Okay, we are going to follow up on that 
question. Let me just ask the second part of this. The 
subcommittee just recently held a hearing to examine the 
capabilities of first responders in border communities. What we 
learned was the local and state governments are exhausting 
their limited resources to avoid a disaster in border 
communities. It is my understanding that international partners 
like Canada and Great Britain were involved in past TOPOFF 
exercises.
    A two-part question, again, what were the policy reasons 
for participation of Canada and Great Britain? And then the 
second part is, given our close proximity and mutual economic 
interests with our friends in Mexico and the Caribbean Basin, 
has the department considered extending the invitation to 
participate in this full-scale terrorism-based scenario, 
especially--I know Canada was included--but especially with 
Mexico and the concerns that we have been facing? So it is a 
two-part question, part A and part B.
    Mr. Schrader. Well, let me answer the first part, and then 
beg your indulgence on the second part. The first part, there 
was outreach and there was a lot of volunteer activity in terms 
of folks coming forward to participate. What I would like to 
ask is if we could brief you off-line, because we would have to 
bring some other people to the table to participate in that 
conversation--if I could ask your indulgence on that.
    Mr. Cuellar. We will do that, but I certainly want the 
members of the committee to know the policy reasons.
    Mr. Schrader. Yes, sir.
    Mr. Cuellar. What about the second part?
    Mr. Schrader. That was the second part. That was the answer 
to the second part. I am sorry.
    Regarding Mexico, if we could do that off-line, I would 
appreciate that.
    Mr. Cuellar. We would be happy to do that, but I would like 
to, when you set that up, I will have the committee come, 
because I certainly want to have all the members of the 
committee that want to participate to hear the reasons why.
    Mr. Schrader. Yes, sir. We would be delighted to do that. I 
just want to make sure I have the right people involved in 
that.
    Mr. Cuellar. But you are the person in charge of making 
those decisions?
    Mr. Schrader. This is a team effort.
    Mr. Cuellar. But you are the main person?
    Mr. Schrader. Yes, sir, and I will organize the follow up. 
I just want to make sure that the other team members that 
should be at the table from the interagency are there for that 
discussion.
    Mr. Cuellar. Sort of a follow on to the two questions 
asked.
    Mr. Schrader. Thank you.
    Mr. Cuellar. At this time, I would like to recognize the 
ranking member, the gentleman from Pennsylvania, Mr. Dent, for 
questions.
    Mr. Dent. Thank you, Mr. Chairman.
    At this time, I am going to yield time to my friend and 
colleague, Mr. Souder.
    Mr. Souder. I thank the distinguished ranking member.
    I have an 11 o'clock meeting that I have to go to. I had 
few comments I wanted to make and possibly at the end a couple 
of questions that maybe you could send back to the written 
record. They are more general.
    I have a number of direct interests. One, in Indiana, out 
in my district, we have one of the outstanding training 
potential facilities that the Guard uses, the former state 
hospital and training center, Muscatatuck, right near Camp 
Atterbury. Hopefully, the Department of Homeland Security will 
use it. The Guard has been using it. General Umbarger has been 
pushing it. The exercises have been occurring down there.
    I have seen different training facilities around the United 
States, and it is one of the only places that has multiple 
decade type buildings of one-to-five stories, a power plant, 
underground tunnels, water systems. It is ideally suited for 
diverse types of training. Right now, the military is using it 
more extensively than homeland security, but because it is a 
mini-city compound in a rural area, it is a great place for 
training exercises.
    Also, in general, my home town of Fort Wayne, the state and 
the city, have done more kind of a mini-regional--you are going 
to have the Chicago-Detroit, and then the question is how are 
you going to train local fire and police as we get into the 
second-and third-tier type areas. I hope that is in the 
planning, even though I understand the priority has to be at 
the highest target areas. Eventually the terrorists are going 
to move around, the copycats, and we need to have all sorts of 
training.
    The third thing that is unique to my particular area that I 
have an interest in and will continue to work with on emergency 
responses, we have become a center of much of the defense 
electronics command and control systems. One of the huge 
problems in emergency responses is people can't talk to each 
other. Raytheon command and control systems is a huge division 
that does this for interoperability of defense agencies.
    ITT and SunGard are in my district, that we have worked 
with the Guard to develop command and control systems, as 
generated by a former Magnavox-Raytheon employee that is now 
General Dynamics center on this. The person who founded that 
has formed Century, who is trying to put this in for forest 
fires, because we have people coming in for forest fires and 
they can't talk to each other, and they have to go down. This 
happened in Katrina.
    In looking at how we do command and control systems, 
because you can run the exercises, but if they can't talk to 
each other, it is not going to do a whole lot of good. I would 
like to know where we are at in command and control systems, 
how we can further that? You don't all have to have the same 
radio, but you have to have some mechanism for the radios to 
talk to each other.
    Another problem that we ran into in Katrina was energy 
supplies for people moving in and once they get there. The 
Indiana Guard when they went down basically had to take several 
days in planning or they would have liquidated the oil and the 
gasoline stations all the way from Indiana to Katrina. And 
trying to figure out how we move large groups of people has 
hopefully been involved in training and preparation as well, 
particularly the larger the response, the type where they are 
coming from.
    A second thing is most of the people dropped to the ground 
because it took regional Guard, other than those close, quite a 
while to get there, were volunteer organizations. One of the 
things they had was no energy on the ground. One of the leading 
people in my district who had worked with an energy company, 
they are looking at whether you could use corn ethanol, but he 
is working towards another where they could burn some of the 
debris and other things into self-generating energy, because it 
doesn't do any good to simulate exercises that require energy 
if there is no energy where the disaster occurred, just like 
the ability to do radios.
    I hope that we are thinking in those terms, too. On the 
exercising, that you are putting those kinds of variations in 
that you may not have adequate energy, which leads to a 
challenge of, are the exercises--and I haven't seen a TOPOFF--
but the minimal thing is how do you simulate real speed? This 
is Notre Dame's problem in practice. I mean, they can block, 
but they can't seem to do it in a game right now. Are there 
things that we can do and incentives? Are there financial-worth 
individuals? Does it go into their record? Are there things 
that we can put an urgency on? And how do we do real-time? It 
is a huge challenge of feeling the same pressures.
    One last thing that I raise a lot in homeland security and 
defense is, the younger people are farther on video-gaming and 
how computers work than much of our government. We ought to 
take advantage of this. Many of the military guys I talk to, 
what they are seeing, they are doing more on video games than 
some of the simulations. They are farther advanced than what we 
have in our gaming.
    I mean, my son when he goes online, he is doing radio 
communications in effect through his ear with people all over 
the country who are on his team, and the other team, and they 
are calling to each other the strategies that they are using. I 
went through one simulation, and I said, ``Look, my 12-year-old 
son is doing more advanced than what we doing in the 
simulation.'' Partly, I think some of the command structure is 
not as up-to-date in some of the computer simulation things as 
our kids are, and that is a huge challenge and an opportunity, 
by the way, too.
    So I wanted to raise those questions today and look forward 
to continuing to work with you. I particularly thank the Guard 
because you have been leaders in Indiana, and I appreciate your 
leadership.
    Mr. Dent. Thank you.
    My time is up, I guess. I yield back. Thank you.
    Mr. Cuellar. The chair would now recognize other members 
for questions they may wish to ask the witnesses. In accordance 
with our committee rules and practice, I will recognize members 
who were present at the start of the hearing based on seniority 
in the subcommittee, alternating between the majority and the 
minority. Those members coming in later will be recognized in 
the order of their arrival.
    At this time, I would recognize for 5 minutes the gentleman 
from Mississippi, the chairman of the committee, Mr. Thompson.
    Chairman Thompson. Thank you very much. I came in a little 
late, but if I can
    Mr. Cuellar. You are the chairman. I yield to you, Mr. 
Chairman.
    [Laughter.]
    Chairman Thompson. Thank you. Let me thank you and the 
ranking member for the hearing and the witnesses.
    Mr. Schrader, there is a memo from the U.S. Department of 
Homeland Security, FEMA, that defines the National Exercise 
Program. It says the National Exercise Program provides a 
framework for prioritizing and coordinating federal exercise 
activities, without replacing any individual department or 
agency exercise. The NEP enables thorough state and local 
department and agencies to align their exercise programs to 
U.S. government-wide priorities, issuing annual NEP exercising 
planning guidance. And it goes on.
    We had an exercise in 2005. Have we shared that document 
with anybody 2 years later?
    Mr. Schrader. Yes, sir. There was an executive summary that 
was put out to our partners and is available. We have just 
recently shared the report with committee staff.
    Chairman Thompson. Are you talking about the complete 
report or a redacted report?
    Mr. Schrader. The complete report, is my understanding, 
sir.
    Chairman Thompson. When did we get it? Is there a reason 
why it took 2 years to get the report?
    Mr. Schrader. Well, sir, the reality is--let me start by 
saying that we don't intend to make the report public by 
sharing it with the committee. The intention here, as was 
mentioned earlier, having the complete report is a very 
sensitive document.
    Chairman Thompson. I won't get into that, then. How are we 
going to share it with our state and locals?
    Mr. Schrader. The idea there is to take the lessons learned 
generically and begin to put those on systems, like we have a 
lessons-learned information system that is widely available to 
state and local government. That is available online and has 
been around for a couple of years.
    Chairman Thompson. So what you are saying is, we have the 
exercise, and whatever results from the exercise we just put 
online?
    Mr. Schrader. We put it out in a format where specific 
lessons learned by category can be used by state and local 
governments. So for example, say I am interested in a 
particular state and how to do contra-flow planning. The idea 
would be you would go online and you would be able to get the 
information from other exercises for best practices.
    Chairman Thompson. How much of the information that we get 
from the TOPOFF in 2005 have we actually put online?
    Mr. Schrader. My understanding is that we are in the 
process of putting that information online, but it is not in a 
format broken out as TOPOFF 5, is the way it has been explained 
to me.
    Chairman Thompson. So your answer is----
    Mr. Schrader. TOPOFF 3. I am sorry. Excuse me.
    Chairman Thompson. So your answer is none of it.
    Mr. Schrader. Let me think about that for a second. It is 
my understanding that we are putting that information online, 
but not in a format that is recognizable as TOPOFF 3.
    Chairman Thompson. Well, if our witness from New Jersey, 
who represents state government, was interested, then it would 
not be available to him at this point?
    Mr. Schrader. Well, for example, if one was interested in 
how to deal with response to plague, the intent would be for 
that to be available online.
    Chairman Thompson. Not to cut you off.
    Mr. Schrader. Yes, sir.
    Chairman Thompson. I wanted to impress upon you that if we 
invest millions of dollars in these exercises, then if it is 2 
years and beyond before the results of those exercises are 
available to the public, I am just wondering how much of that 
information that you glean is actually current enough to move 
forward with?
    Mr. Schrader. If I might explain, sir. What you said was 
critical. The executive summary of the document all the way 
back, let us see, to July of 2005, was available for our 
federal, state and local partners who participated. We did 
share that with those folks 2 months after the actual event, 
but it was not made available to the public.
    Chairman Thompson. That is right.
    Mr. Schrader. Just to differentiate, sir.
    Chairman Thompson. So if we take the state and locals who 
participated----
    Mr. Schrader. Yes, sir.
    Chairman Thompson. --what about the state and locals who 
didn't?
    Mr. Schrader. That is the purpose--the reason the National 
Exercise Program created this Corrective Action Plan is that it 
makes a lot of sense to take those lessons learned and put them 
in a format that is available for everybody that is a part of 
the state and local community that needs it. We believe that is 
exactly what needs to get done.
    Chairman Thompson. Well, I guess, and I appreciate the 
indulgence of the chair, my real concern is that 2 years after 
the TOPOFF, we have not publicly shared any of the results of 
the TOPOFF with any stakeholders other than, according to your 
testimony, those who participated in the actual exercise. I 
would venture to say that that is less than 1 percent of the 
stakeholders in this country. So what we need is the ability to 
not only conduct the TOPOFFs, because we invest the money, but 
we need people like the National Guard and others who are 
stakeholders to share in the results of them so that if 
emergencies come, we would have some demonstrated action to 
take. I think I have made my point, and I appreciate your 
answers.
    Mr. Schrader. Yes, sir. Thank you.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, I will continue to alternate between majority 
and minority. I will recognize Mr. Dent. I was going to 
recognize Mr. Souder, but I will recognize Mr. Dent, and then 
we will go to Mr. Dicks from the state of Washington.
    Mr. Dent. Thank you, Mr. Chairman.
    In follow up to Chairman Thompson's questions, obviously 
this TOPOFF 3 report was released to a very limited audience. I 
guess the follow-up question I would have, Mr. Schrader, would 
be what changes are we going to make as we move forward on 
TOPOFF 4? Obviously, I understand the security concerns about 
releasing the full report that you just identified, but how are 
we going to make this better for TOPOFF 4 to ensure more timely 
reporting moving forward?
    Mr. Schrader. Yes, sir. The intention going forward after 
this TOPOFF is to move this exercise process out into the 
regions of the country to get more benefit from the process. So 
for example, we have our FEMA regional administrators who are 
now actively involved with us in this program, given that the 
program is now inside FEMA. The FEMA regional administrators 
will be getting resources to coordinate these efforts with the 
state.
    The intention will be, as I mentioned earlier, during this 
cycle of exercise planning and activities, we want those to be 
done--regardless of where the venue is--we want it to be more 
national in character. If you think about it, if you do two 
states every 2 years, it will take us 50 years to get through 
the entire country. We need to move faster, quicker and we 
believe that by using the regions, as you all envisioned in the 
Post-Katrina Act, we are going to be able to be more effective.
    There is a lot of work. I will be very candid with you. 
There is a lot of work to do to make that happen, but that is 
our intention.
    Mr. Dent. Mr. Langenbach, with respect to the after-action 
report for TOPOFF 3, do you feel that you have received 
adequate feedback and information from that exercise of TOPOFF 
3? I think we all realize that the beauty of these TOPOFF 
exercises is not just conducting the exercise, but really the 
need to improve and discover what we can do better. Have you 
felt in New Jersey that you have received adequate information 
from the Department?
    Mr. Langenbach. Yes, sir, Mr. Dent. I guess one of the 
things I didn't read when I did my summary was that we 
conducted an internal exercise evaluation, so we put all the 
moving parts of TOPOFF in partnership with our DHS folks, and 
captured all that information, and we culled it out and made an 
after-action report for the state of New Jersey. Again, I 
didn't get a chance--it is in my written testimony--some of the 
improvement actions we made based on that.
    At the ground level, at the state level, interacting with 
our federal partners at the state level, I think we have made 
some great improvements.
    Mr. Dent. So you feel that you have received adequate 
feedback to help you improve your process based on that 
exercise?
    Mr. Langenbach. Yes, sir.
    Mr. Dent. That is good to hear.
    I guess back to Mr. Schrader. Do you think that this report 
will be more broadly available to non-participating States from 
TOPOFF 3? I mean, obviously New Jersey and Connecticut are the 
two States, and it seems, at least in the case of New Jersey, 
that they seem to be pleased with the feedback they have 
received. How are we going to deal with non-participating 
States?
    Mr. Schrader. Well, my sense is that we have to do two 
things. Based on the conversations we have been having, we want 
to take this executive summary and make sure that we make that 
more widely available to the stakeholders in the states, of 
course again without having public distribution. And then, of 
course, the intention is for this lessons-learned system to 
really be a tool for anybody that is in this business in the 
country because it will have a hierarchical access to get to 
the information to be able to get that information to the other 
stakeholders in the state and local governments.
    Mr. Dent. Thank you.
    To General Saunders, I understand that DOD will be 
conducting its own exercise called Vigilant Shield, concurrent 
with the TOPOFF 4 exercise. Can you tell me how these two 
exercises are going to be coordinated? Why would the DOD 
conduct its own separate exercise using the same scenario, 
rather than participate in TOPOFF 4?
    General Saunders. First of all, sir, Vigilant Shield is 
actually operated by Northern Command, and I don't mean to 
defer to somebody else, but I can't really speak to Vigilant 
Shield in detail. What I can tell you is that the coordination 
our folks have been working with, both DHS and Northern 
Command, to work through the issues of coordination pre-
exercise.
    The other thing I would like to say is that exercises, 
whether you are at the local level, at the state level, the 
National Guard unit level, or federal level, are done for a 
variety of different reasons I think most of the members of the 
committee would understand. My understanding of how Northern 
Command does it is to prove some of their concepts and to do 
some other things. Traditionally, we do exercises to validate 
training that has been conducted.
    So when the National Guard, when I say to you, a National 
Guard Vigilant Guard exercise, in conjunction with Vigilant 
Shield, it is entirely likely that General Renuart and his 
staff out at Northern Command have one set of exercise 
objectives that are not the same as ours, because we are 
exercising at different levels for different reasons, and 
trying to leverage the resources for both through one exercise. 
My guess would be that that is what they are trying to attempt 
to do here. I can say with certainty that is what we try to do 
with Guam and Arizona and Oregon and the participating states 
on both sides of that. I hope that made sense to you, sir, but 
that is kind of the response that I can give you at this stage.
    Mr. Dent. Do you agree, Mr. Schrader?
    Mr. Schrader. Yes. If I might add some flavor to that, when 
I was in Maryland, this is actually a terrific effort, because 
one of the things that was very difficult at the state level is 
when different federal agencies are planning exercises and they 
don't even know that they exist. As I said in my testimony, 
this is a work in progress, but now we are at least getting 
situational awareness of all the plans, and then folks are 
saying, ``well, we will sign up to do that.''
    We actually did that in Maryland, where if we had to have a 
port exercise and we were having another exercise, we would 
combine the two to allow you to achieve the objectives, as the 
general would say, for the specific purpose, but only have one 
effort so you are conserving resources.
    General Saunders. Sir, if I could just piggyback one time 
onto that and give some credence to DHS's plan for the National 
Exercise Program that you all have requested and that they are 
attempting to execute, this is the cusp of when, as a nation, 
responders at all levels will understand. If we can get a stake 
in the sand on that national level exercise, then the exercises 
in tier two, three, and four that need to nest to those, we 
have a much better opportunity to do that as we move forward.
    Mr. Dent. Thank you.
    I will yield back, Mr. Chairman. I just suggest that maybe 
we talk to some folks at Northern Command about what they are 
doing with Vigilant Shield. Thank you. I yield back.
    Mr. Cuellar. Yes, sir. Thank you.
    At this time, the chair recognizes for 5 minutes the 
gentleman from Washington, Mr. Dicks.
    Mr. Dicks. Mr. Schrader, how long have you been at FEMA?
    Mr. Schrader. About 45-plus days, sir.
    Mr. Dicks. Now I understand a little bit. You seem to be 
referring to other people and this and that. Secretary Ridge 
said it in an AP article, going back to this subject, Ridge 
launched his own security consulting firm, and he said he is a 
big fan of the TOPOFF exercises, but he says it is not 
acceptable that the review from the 2005 exercise is still not 
released publicly.
    Now, I still don't have in my mind a clear answer about 
why. You said that it is because it is so sensitive. Is it so 
sensitive because there was a lot of failures in this exercise? 
Katrina wasn't exactly a home run. I mean, there is going to be 
some suspicion here that if you are not putting out the report, 
it is because it makes the department look bad or you are 
trying to cover up what happened.
    Now, can you explain again this sensitivity? You know, we 
are used to having classified reports up here and nonclassified 
reports. I mean, why did it take the department so long? Is 
that the reason they brought you in, is to try to get these 
reports accomplished? Or is there just a disregard for the 
requirement to have a report?
    Mr. Schrader. Well, it is my understanding, sir, that going 
back, the TOPOFF reports themselves in the series going back to 
the original one have not been released as a matter of 
practice. So I believe that the prior TOPOFF----
    Mr. Dicks. Not even to the committees of Congress?
    Mr. Schrader. I can't speak to that.
    Mr. Dicks. So there is a hearing, and then a few days 
before the hearing all of a sudden magically the report shows 
up?
    Mr. Schrader. I can't speak to that, sir, but my point is--
--
    Mr. Dicks. Why can't you?
    Mr. Schrader. I am sorry, sir?
    Mr. Dicks. Why can't you speak to that? Why was the 
decision made to send the report up on September 10?
    Mr. Schrader. What I was going to say is I am not prepared 
to speak to it today, but I will be delighted to follow up.
    Mr. Dicks. When are you going to be prepared to speak to 
it?
    Mr. Schrader. Well, let me see if I can back up a step. The 
bottom line is that it is not the intent to release these 
reports because of their sensitivity.
    Mr. Dicks. What sensitivity? What do you mean by 
``sensitivity''?
    Mr. Schrader. Well, in the reports, sir, they describe the 
vulnerabilities that were exercised, and the lessons learned 
from those vulnerabilities are contained within the report. The 
executive summary, and as I mentioned earlier, the lessons 
learned are digested and shared. So the intention is to distill 
from the reports the information that is needed to do the 
improvement planning.
    Mr. Dicks. Has there been a formal lessons learned on 
Katrina?
    Mr. Schrader. Yes, sir, several. The Congress did one. The 
Homeland Security Council did one which had 125 lessons 
learned. Many of those lessons learned were built into the 
Post-Katrina Act which was passed by the Congress in October of 
2006. Yes, sir.
    Mr. Dicks. So you are saying there is never going to be--
has there ever been a thought about having a classified version 
of this report?
    Mr. Schrader. Well----
    Mr. Dicks. Sent to the Congress?
    Mr. Schrader. We would----
    Mr. Dicks. That you would be able to describe these 
sensitivities that you are talking about? We keep things in 
secure rooms up here all the time.
    Mr. Schrader. The report itself is for official use only, 
which is unclassified. One of the things we want to avoid is by 
classifying it, it then becomes more difficult to boil it down 
and share, which we don't want to do because our state and 
local partners need to have access to this information.
    Mr. Dicks. General, do you do reports on your exercises?
    General Saunders. Yes, sir. I think maybe one of the 
distinctions, and we tend to use at least so far I have heard 
today that we are kind of using after-action review, lessons 
learned, and kind of the same language. We treat those as two 
separate things--the after-action review happening, as 
suggested, immediately after the event.
    We do a second-level product that comes out to the 
participants very quickly, and then we do a more thoughtful 
product that is due out within about 45 days of the exercise 
that goes to all participants. Incidentally, most of that is 
also hung on the lessons-learned information system that DHS 
operates now.
    So I guess the answer to your question would be, yes sir, 
we do it basically at three different levels.
    Mr. Dicks. Yes. How do you do it at the state level, Mr. 
Langenbach?
    Mr. Langenbach. Pretty much the same way as the general 
outlined. After we conduct an exercise, we do a quick look at a 
hot wash, where we bring the players right in and talk to them 
then, then we conduct an after-action review meeting and bring 
all the players and the participants and everybody together and 
go through again a more detailed look at it. We publish a 
report. That report is vetted through all the participants in 
the exercise and then after that is done, we have an 
improvement-action plan conference.
    Mr. Dicks. Do you leave things out because of sensitivity? 
You have sensitivity in your reports.
    Mr. Langenbach. Yes, sir. I guess what I was going to say 
is, at the tail end of everything is we come out with a best 
practices recommendation based on the improvement action plan. 
So if I could use an example, when we exercise our hospitals, 
we have 84 hospitals in New Jersey, and we don't exercise them 
all at one time. We might do an exercise series involving a 
regional set of hospitals, maybe five or ten hospitals at the 
most. But what we glean from that exercise is what, when we 
come down to it and distill it, is an improvement action plan 
and a best practices recommendation that can go across the 
state.
    Mr. Dicks. Someone said you are short on resources. I 
happen to be on the Defense Subcommittee. How much are you 
short?
    General Saunders. Sir, when we execute Vigilant Guard, it 
is about $7 million a year to get participation. Effective with 
2008's budget year and through the fiscal budget year, through 
the FYDP through 2013, we have money to plan those exercises at 
the national level, with NORTHCOM as the executive agent for 
that. In fact, the National Guard Bureau is resourcing about 17 
folks out there to work the Vigilant Guard Exercise Program. 
That part of the resourcing is pretty well in hand now.
    The problem is if we go to an adjutant general in pick-a-
state, and ask them to participate, that is extra man-days for 
those folks that participate at the leadership level all the 
way down, if you do a full-scale exercise, to the responders 
that show up on the ground to do the exercise. They have to 
come up with that money somewhere, and right now that is the 
delta that we are struggling with.
    So to give you the precise number, a rough order of 
magnitude would be about $7 million if we consider that we are 
doing the same thing that we have been doing in the past. But 
depending upon the scale of the exercise, we would set the 
budget requirements, sir.
    Mr. Dicks. I yield to the lady here. Would you like to make 
a comment?
    Mrs. Christensen. Thank you.
    I just wanted to say that when General Blum was here, I 
think he gave us a pretty thorough assessment of the lack of 
resources to what their needs were.
    Mr. Dicks. Well, we appreciate what the National Guard did 
at the Katrina thing. You know, that whole relationship between 
how the FEMA works and the National Guard is tenuous at best 
and needs to be re-thought, I think.
    Anyway, thank you, Mr. Chairman.
    Mr. Cuellar. Yes, sir, Mr. Dicks.
    At this time, the chair will recognize for 5 minutes the 
gentlewoman from the U.S. Virgin Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Schrader, two quick questions. One, I would like to 
understand that despite the fact it hasn't been shared 
publicly, the reports haven't been shared publicly or with us 
until recently, that the state and local agencies that 
participate have gotten that report and have been able to----?
    Mr. Schrader. They haven't gotten the full report. They got 
a summary 2 months after the exercise.
    Mrs. Christensen. Enough information for them to address 
the deficiencies?
    Mr. Schrader. Yes, it addressed the various immediate 
actions that were obvious going through the exercise. It was in 
enough detail that they could start doing corrective action 
improvement planning immediately.
    Mrs. Christensen. And the $25 million that you quoted, does 
that include what the states put in or is that just federal?
    Mr. Schrader. The states and territories that participated 
put about $2 million each in. That was a competitive process.
    Mrs. Christensen. Is that included in the $25 million that 
you quoted?
    Mr. Schrader. No, ma'am.
    Mrs. Christensen. I am glad you said ``territories,'' 
because my next question to you and to Major General Saunders 
was, is it your understanding that when it says ``state'' it 
also includes ``territories''?
    Mr. Schrader. Right--56 states and territories. Yes, ma'am.
    Mrs. Christensen. Okay. Because in your references before, 
you just said ``state,'' and I had really wanted to have 
territories specifically stated in the definition, but you said 
to me that ``state'' meant ``state and territories.'' I wanted 
to be sure of that.
    Mr. Schrader. Yes.
    Mrs. Christensen. I spoke to my FEMA director earlier. They 
have hired a consultant to help them plan their exercises. Is 
that normal? Or should we expect that any of you would help us 
to do that and not have us to spend additional funds to hire an 
consultant?
    Mr. Schrader. Exercise design is a skill. There is a skill 
and an art to it. Each organization or jurisdiction should have 
a certain number of people that are skilled and understand how 
to plan and manage and how exercises are designed. However, 
because of the episodic nature of exercise design, it is not 
uncommon to hire consultants, but I would never just turn it 
over to them. You need to have enough people of your own 
involved in the process so that they can guide it.
    Mrs. Christensen. You are new to the job. Would you just, 
when you go back to your office, would you check to see that 
there has been some interaction with the Virgin Islands on 
design and planning?
    Mr. Schrader. Yes, ma'am. Sure.
    Mrs. Christensen. Thank you.
    We had a hearing, I guess it was last week, where we were 
talking about the use of volunteers. The concern was that many 
of the volunteers that came to respond to 9/11 and Hurricane 
Katrina, that needed follow up, medical assessments and follow 
up were sort of lost. No one really had identified whose role 
it was, whose responsibility it was to keep track of those 
volunteers, to list them, to make sure that we had the contact 
information.
    I am going to ask you and Mr. Langenbach, who is 
responsibility is it in a disaster? Where does that fall to 
receive the volunteers and keep an accurate list of those 
volunteers so that they can be reached for follow up?
    Mr. Schrader. If I may mention something that would help 
clarify that. In my experience in Maryland, we had 200-plus 
people go down to Katrina and we had our medical volunteer 
corps. Are those the kind of folks you are talking about ma'am?
    Mrs. Christensen. Anyone. It might have been firefighters 
on 9/11 that came out from areas that?
    Mr. Schrader. The way the system should work in a mutual-
aid situation, and in my personal experience, what I know about 
the system is that there is an emergency management compact 
between the states. We would get a tasking from the compact 
that we would respond to.
    Mrs. Christensen. But this is in the region, right?
    Mr. Schrader. No, it could be anywhere in the United 
States.
    Mrs. Christensen. Okay.
    Mr. Schrader. It is all the states and territories that are 
part of the compact. I would have to check on the ``all 
territories.'' I know all states are part of the compact. I 
would have to check on that.
    Mrs. Christensen. We probably are.
    Mr. Schrader. Yes. But the point is that we sent our people 
as part of that request, and it was our responsibility to keep 
track of them. It was our responsibility to make sure they were 
credentialed. For example, the medical people we sent down, we 
actually swore them into our Maryland Defense Force so that 
they were covered when they went down. So the actual people 
themselves and the accountability for those people should be, 
in my experience, the responsibility of the supplying agency, 
which would be the state or local jurisdiction sending them.
    Having said that, part of what the National Incident 
Management System envisions, and this is where we have got to 
get to, is a more capable credentialing process at the point of 
the situation. So it is a two-prong. I would say the states and 
local jurisdictions are probably doing this well, and know who 
they are sending and should follow up and track them, but we 
also need to have a better process of managing those resources 
when they are coming.
    Mrs. Christensen. Mr. Chairman, can Mr. Langenbach answer 
also? Thank you.
    Mr. Langenbach. Just a couple of things. I guess I am going 
to bounce back and forth between exercise world and real world. 
I will start with the real world. We also sent volunteers to 
Louisiana for Katrina. We did it under the incident management 
system. So we put a team together and, as part of that team, we 
sent a medical team down to work with those folks. We kept 
track of who was down there, how long they were there, anything 
that they were exposed to, injuries, things like that that 
happened.
    Yes, ma'am? And then when we got them back in-state, we 
kept monitoring them to make sure. Some people had developed 
some different things from what they were exposed to down in 
Mississippi. We had 700-plus volunteers.
    On the exercise world side, we learned something during T-
3, TOPOFF, that the federal government has this lean-forward 
posture. When things are happening, they lean forward and they 
start pushing assets to the affected state. Well, one of the 
things we learned was that that was going to happen, that they 
were going to push things to New Jersey anticipating what our 
needs are going to be. One of those things would be people--
doctors, nurses, medical, whatever, medical facilities and 
things like that.
    Well, we had never considered that that was going to 
happen. So now as part of this after-action plan and developing 
it, we have already laid out an area in places where when this 
does happen, and we anticipate it happening, one of the places 
for them to go and stay, and again, a method to track their 
whereabouts.
    Thank you.
    Mr. Cuellar. Yes. At this time, I will recognize for 5 
minutes the gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Thank you for being here. I apologize for being in and out. 
I just happen to have another hearing going on at the same 
time, bouncing back and forth.
    I know there are many parts to an emergency exercise and 
tabletop, and I recognize that. I participated in one. But 
having been a former chief state school officer, I have been 
concerned about the department's failure to fully consider 
children and the emergency planning needs of schools and their 
operations. Schools are an important part. A lot of people tend 
to be congregated there.
    So as you know, the House passed the Homeland Security 
Authorization Act earlier. It called for DHS for an under 
secretary for policy to be responsible for considering the 
needs of children in departmental policy, programs and 
activities. Although the responsibility is not yet in statute, 
I would expect that FEMA is interested in taking care of all 
our citizens, to include children who are among the most 
vulnerable.
    So my question is this--this month's tabletop exercise will 
simulate a radiation attack disaster. My question is, how are 
children incorporated in this exercise, and will the exercise 
simulate the evacuation of schools? And finally, when you 
utilize medical response, do you simulate the adaption of needs 
for children in terms of equipment and/or medication? As you 
know, for example, when you are talking about potassium iodide 
that is used in response to radiological attacks, that protect 
thyroid functions, you certainly can't give a child an adult 
pill, or at least you shouldn't. So my question is, have we 
done this kind of planning? And if not, why?
    Mr. Schrader. Sir, I am not prepared to answer that 
question, but I can get back to you. We will have to go back 
and take a look at what level of detail, but that is a level of 
detail I don't know.
    Mr. Etheridge. Well, that is a very simple question. I 
mean, if we have done the planning we ought to. If we couldn't 
ask you the $25 million question, we ought to be able ask you a 
$10 question.
    Mr. Schrader. Yes, sir.
    Mr. Etheridge. And that is a pretty simple one.
    Mr. Schrader. Okay.
    Mr. Etheridge. If we haven't done that, the details of 
planning in my view--I mean, in my view, I don't mean to be 
overly critical, but if you haven't done that kind of planning, 
we are way off the map. But I would appreciate a response, not 
just to me, but every member of this committee ought to be 
getting that.
    Mr. Schrader. Yes, sir.
    Mr. Etheridge. Thank you.
    Does anyone else want to take a shot at that?
    Mr. Langenbach. I guess just, sir, from the state 
perspective, it is something that we wrestle with all the time 
in our exercises. You brought up KI--potassium iodide. That is 
part of our radiological emergency response planning. In those 
exercises, that is one of the things that we talk about is 
these children that are in daycare centers, children that are 
in schools, and we are going to evacuate one of these emergency 
planning zones. Do we give them the KI as they are getting on 
the school bus to leave? Or do we give it when they get to the 
reception center?
    We have taken steps, and I know through the NRC, National--
whatever it is, I am sorry--but through the NRC to get liquid 
KI now for the little children. We have always had the adult 
size, the 130 milligrams, the 65 milligram for the adolescents. 
Now we have liquid KI. I know all the states have this, again, 
to make it easier to give people, the little children, the KI, 
because they are the most susceptible, and also people who 
can't tolerate the medicine.
    So, Nuclear Regulatory Commission. I knew I would get it.
    General Saunders. From the National Guard perspective, I 
would just throw in a couple of observations, because I am also 
a citizen-soldier when I am not wearing a uniform.
    Mr. Etheridge. Sure. I understand.
    General Saunders. I live in Iowa, and we do a bunch of 
different things. But it would seem to me that if TOPOFF is 
oriented toward the strategic policy level, that perhaps at the 
local level you will see those first responders and the state 
level health care folks taking those aspects on as either a 
part of a tier two or definitely a central piece of a tier 
three level exercise.
    We some of that in the Indiana exercise last summer because 
we were playing from the middle--actually the northeast corner 
of Indiana with a nuclear device. Schools, hospitals, people in 
hotels, all of those kind of special needs folks that may fall 
through the cracks otherwise became an issue.
    So from my perspective, we do look at those, but perhaps 
not at the TOPOFF 4 level type of objective.
    Mr. Etheridge. We need a little forward response, because I 
think these are the kinds of things that somebody needs to have 
on their sheet.
    Yes?
    Mr. Langenbach. Just one more point just to amplify what 
the general said. The TOPOFF exercise was at one level. It was 
federal agency to federal agency, federal agency to state. And 
then when we brought it down to our level, we took the 
overarching goals that DHS had crafted for the TOPOFF exercise 
and created 13 or 14 of our own state goals. Now we are down 
into the weeds. Now we are down into the municipal level and 
even lower, the individual responder level.
    So I think that is what is going to happen. I can't speak 
for T-4, but I am guessing that is what is happening in the 
venues of T-4.
    Mr. Etheridge. Mr. Chairman, with your indulgence, I 
couldn't agree more. But the bigger issue is, have we got a 
plan somewhere to do it, and if it should happen that we have 
the resources and the stuff behind it to meet the needs that 
are necessary at whatever level we are doing it, whether it be 
at federal, state or local level.
    Mr. Langenbach. I can't speak for others, but the state of 
New Jersey does. Yes, sir.
    Mr. Etheridge. I yield back. Thank you, Mr. Chairman.
    Mr. Cuellar. At this time, we will go with a second round 
of questions that we might have. I will yield my time to Mr. 
Dicks from the state of Washington.
    Mr. Dicks. Thank you, Mr. Chairman.
    According to a brief summary of the 2005 exercise marked 
for official use only, which was obtained by the Associated 
Press, problems arose when officials realized the federal 
government's law for providing assistance does not cover 
biological incidents. Are you aware of this, Mr. Schrader?
    Mr. Schrader. Am I aware of the fact that it does not?
    Mr. Dicks. Yes.
    Mr. Schrader. Yes, sir.
    Mr. Dicks. Okay. What are you doing to get that changed? 
Has the administration asked the Congress to change the law or 
done anything administratively to change the law?
    Mr. Schrader. I would have to go back and see whether there 
is specifically----
    Mr. Dicks. Is there anybody here in your brain trust 
standing behind you there that can answer the question?
    Mr. Schrader. Probably not, sir. We would have to go back. 
What I am not clear on, and again this is----
    Mr. Dicks. Okay, let me go a little further in detail. The 
exercise involved a mustard gas attack from an improvised 
explosive device in Connecticut, and release of the pneumonic 
plague in New Jersey. This caused certain federal disaster 
programs to be unavailable to some residents suffering from the 
attack, according to the summary.
    Now, this is in your summary.
    Mr. Schrader. Yes.
    Mr. Dicks. And you haven't done anything about it? I know 
you have only been here 45 days, but do you have any idea if 
anything has been done about this?
    Mr. Schrader. Sir, I don't know, but I will find out.
    Let me also mention that in the context--I would have to go 
back and look specifically at those items because the bottom 
line is that CDC when I was in Maryland, we had programs that 
we worked with HHS----
    Mr. Dicks. I think they are talking about programs to help 
citizens who are affected by this, and apparently the federal 
law doesn't cover this.
    Mr. Schrader. What I was going to say is----
    Mr. Dicks. I think maybe our committee might even have 
jurisdiction, so we might be very interested if you don't have 
it, we might be able to fix this for you.
    Mr. Schrader. All right. If we are talking about the 
Stafford Act, that becomes--definitely the Stafford Act does 
not cover this, and so that would be where the issue is.
    Mr. Dicks. A 2005 Homeland Security inspector general 
report suggested the department start tracking the lessons 
learned from these exercises. Apparently, you are doing that. 
Is that not correct?
    Mr. Schrader. Yes, sir.
    Mr. Dicks. Okay. A 2006 White House report on Hurricane 
Katrina criticized the department for not having a system to 
address and fix the problems discovered in the TOPOFF 
exercises. The most recent TOPOFF exercise in 2005 revealed the 
federal government's lack of progress in addressing a number of 
preparedness deficiencies, many of which had been identified in 
previous exercises, according to the White House.
    Now, the White House isn't your enemy here. You are part of 
this administration.
    Mr. Schrader. Yes, sir.
    Mr. Dicks. Previously, a more detailed version of lessons 
learned from TOPOFF 2 held in 2003 was not released to states 
for security reasons. This seems to be an ongoing problem. The 
whole purpose of lessons learned--I can remember General 
Schwarzkopf coming back from Desert Storm, Desert Shield. He 
came before our committee and told us all the things that were 
problems. And we fixed a number of those things. We got UAVs 
and other things because they couldn't see over the horizon. 
There were a series of things in intelligence that General 
Schwarzkopf wanted fixed. And he came to the committee and we 
got them fixed for him.
    I think that is the way it should work here. If you find 
out that the law is limiting you and you have been here 45 
days, but the department should have been doing this, and 
apparently they are not. And that is why there is suspicion up 
here about, you know, is anybody in charge down there?
    Mr. Schrader. Right. Could I offer, sir, that I would not 
assume because I am unaware of it at this moment that the 
department is not doing it, number one. Number two, the 
National Exercise Program actually the way it is designed now 
addresses many of these issues that were discussed in this 
article, starting with the----
    Mr. Dicks. It is the way we have to change the law. The 
article can't change the law. Only the Congress can change the 
law.
    Mr. Schrader. Yes, sir. In that particular case, yes, sir.
    Mr. Dicks. Well, could you get us a report? Could you get 
us a piece of paper on these exercises, the things that may 
need legal changes and submit it to the committee? Mr. 
Chairman, I think that would be totally appropriate. We would 
like to help you.
    Mr. Schrader. Yes, sir.
    Mr. Dicks. Even though it may not sound like it today, but 
we are just trying to get the information out here so that we 
can correct some of these problems.
    Mr. Schrader. Right.
    Mr. Dicks. The sooner the better.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, sir.
    At this time, I will recognize for 5 minutes the ranking 
member from Pennsylvania, Mr. Dent.
    Mr. Dent. To Mr. Langenbach, just a quick question. Since 
you participated in TOPOFF 3, what are the main changes you 
would suggest to the overall TOPOFF exercise program?
    Mr. Langenbach. Well, that is a great question, sir. One of 
the things that we saw during the TOPOFF exercise, and I think 
it is exercises in general, is time. We crammed, and I am using 
``crammed'' in the positive sense, an awful lot of activities 
into 5 days of exercise play, perhaps unrealistically. Some 
things would have flowed, and if we look at real world events, 
we have been telling people at the local and state level that 
you are going to be on your own for 36 hours or whatever.
    But we in the exercise world try to accomplish as much of 
interaction either between the locals and the counties and the 
state, and then the state to the federal government. We try to 
accomplish all that in 4 or 5 days. It is unrealistic. I think 
if I could, and really I am going to get hurt when I get home 
for this, but I think the exercise should be longer. It should 
be 10 days or 2 weeks. We tried that at some extent at home, 
but again logistically think about it. What we went through 
logistically in 5 days, if you double that or even longer, it 
is a challenge from a number of different standpoints.
    To get to play in an exercise, to get people to play in an 
exercise for 5 days is a challenge. We had our governor fully 
involved. We have our governor's cabinet fully involved. You 
can see at the end of the exercise play, you know, Friday 
afternoon people are starting to tail off. They just start to 
tail off. So again, it is another challenge. If I could change 
something, sir, that would be it.
    Mr. Dent. You would just extend the exercise?
    Mr. Langenbach. Yes, sir, and make it more--again, 
realistic time-wise.
    Mr. Dent. Thank you. Thanks for that answer.
    General Saunders, just quickly again, could you just 
explain the role of the National Guard in TOPOFF 4, what it 
will be versus that of Vigilant Shield, so I understand this 
better?
    General Saunders. Yes, sir. I am sorry I wasn't quite as 
perhaps responsive as I should have been on your first go 
around with that.
    The National Guard with respect to TOPOFF 4, we have Oregon 
a full-scale exercise going on with National Guard work in that 
particular area. In fact, the National Guard Bureau will send 
what we call a joint enabling team, which is supporting staff 
officers to the state of Oregon to help them in the middle of a 
crisis do some work. We really started that in Katrina, and 
actually started it pre-Katrina, and the states need to request 
that kind of activity. So Oregon is a full-scale exercise for 
us.
    Guam is a full-scale exercise and we will be sending some 
of our public affairs folks out there.
    Do we need to hold on this?
    So that is part two from a National Guard perspective.
    In Arizona, we have a functional exercise that we are 
participating in, and then with NORTHCOM we are not exactly 
disconnected from that, but we are not actively involved in 
running the Vigilant Shield side of the program. The National 
Guard has between 300 and 400 people involved in TOPOFF 4 in 
those three states and territory that I mentioned. Then we also 
have our adapted battle staff back here at NGB, at the National 
Guard Bureau level working at the strategic federal level.
    Does that answer your question, sir?
    Mr. Dent. Thank you.
    I yield back.
    Mr. Dicks. Would the gentleman yield?
    Mr. Dent. I would be happy to yield to Mr. Dicks.
    Mr. Dicks. You mentioned in your statement the civil 
support teams. Are they used? Would the Oregon civil support 
team be involved in this?
    General Saunders. I believe they would be, sir. I can't 
speak to that exactly, but my guess would be they would as a 
full-scale exercise, and perhaps other states, because the 
civil support----
    Mr. Dicks. Tell us again what the civil support teams do 
for the National Guard on a state-by-state basis.
    General Saunders. Okay. Understand I am not an expert on 
civil support teams, but they are 20 to 21 people, both Army 
and Air, who have capabilities to assess weapons of mass 
destruction, biological and chemical agents, limited 
decontamination to decontaminate their own folks, but to 
provide information about what kind of agent we are dealing 
with, what kind of radiological agent we are dealing with, to 
the civil authorities. That is civil support to the civil 
authorities.
    Mr. Dicks. Have you found any legal impediments? Is there 
anything that impedes the National Guard from doing what is 
necessary in these areas, like apparently FEMA has?
    General Saunders. Well, sir, yes. In a word, I would say 
flexibility in funding. One of the things that thought we were 
probably going to be asked today was how is the National Guard 
and DHS working together. What are we doing to collaborate? I 
can give you some examples that will be a fairly lengthy answer 
to your question, but not overly so.
    It gets to the flexibility of funding. For example, in the 
critical infrastructure protection mission assurance area, we 
have been contacted by DHS, our J-3, the operations folks at 
National Guard Bureau, to field 10 teams nationwide to go out 
and assist in creating critical infrastructure assessment. That 
plan originally was to use the Economy Act to afford dollars to 
us. DOD says they have to go federal agency to federal agency. 
That is fine, so we are working out the details behind making 
that happen. In my judgment, it probably should have already 
been done.
    On a similar effort, the Constellation ACAMS Program, which 
is DHS program, automated critical infrastructure assets 
management system, so that at the local level we can start 
capturing data about critical infrastructure. DHS has asked us, 
the National Guard, to help them train nationwide first 
responders and emergency managers across the 54 states and 
territories and the District. My response to that was, knowing 
what was going on with the critical infrastructure piece and 
the discussion about the Economy Act, was perhaps DHS can flow 
the money to three states that we help identify. In lieu of 
waiting for this policy and regulation change to occur, since 
the money comes from DHS directly to the state, those states 
could put soldiers and airmen on state active duty to conduct 
that training, using Guard facilities where necessary because 
we are in 3,400 communities and we would field three mobile 
trainings. So there are two examples.
    Those are taking longer than they should to put on the 
ground because we have to work our way through a milieu of 
Title XXXII, Chapter 9, Title 32, Section 502 to be able to put 
folks on duty to do those operational missions. I understand 
that the push-back then is not breaking the bank in terms of 
use of Title XXXII. So the protections that have been put in 
place have been there for a good logic, but they are hampering 
us now in terms of being able to partner more effectively with 
DHS directly, in my opinion, sir.
    Mr. Dicks. Could you give us a piece of paper that would 
outline this problem? Maybe we can do something about that as 
well.
    General Saunders. I can't, but I am sure legislative 
liaison folks will be prepared and ready with that, yes, sir.
    Mr. Dicks. Thank you.
    Thank you for yielding.
    Mr. Dent. I yield back.
    Mr. Cuellar. Mr. Etheridge, any questions?
    Mr. Etheridge. Very quickly. Thank you, Mr. Chairman.
    We have been talking by and large about TOPOFFs that are 
dealing with manmade disasters. You know, we are talking also, 
the agency is all-hazard. Don't let us forget that. My home 
state happens to be one of those states that is in the bulls 
eyes for hurricanes and we are likely to have as many or more 
hurricanes. The greatest catastrophe we have had in recent 
years happened to come from one in New Orleans.
    My question is this, because in the past we have seen that 
FEMA has reacted as well as they should when we had natural 
disasters, and we are still suffering from that in the Gulf 
area. My question is, with the departure here now, the 
vacancies we are seeing in DHS and the deputy leaving, I am 
concerned about the brain drain that we may be having now at a 
time when we might have real needs, and to build enough to 
maintain the professionalism.
    Much of what we have been talking about has been terrorism. 
So my question is, what gives you confidence that the skills 
gained in these exercises will transfer to an actual disaster 
if it is a natural disaster? What follow up is being done to 
make modifications if we need to make them from lessons learned 
to transfer to that? Because I think that is the critical 
piece.
    Mr. Schrader. Yes, sir. Let me see if I can be brief, 
because that is about a 1/2 hour discussion.
    Mr. Etheridge. See if you can give it in about 3 minutes.
    Mr. Schrader. Yes, sir.
    [Laughter.]
    FEMA now is at 95 percent strength, so under Mr. Paulison's 
leadership, we have been rapidly ramping up. We have actually 
got an additional, thanks to the Congress's intervention, we 
have new people in addition to that that we are going to be 
putting out in our regions.
    The other thing that we are doing is we are very focused on 
hiring professionals.
    Mr. Etheridge. You need to hire professionals.
    Mr. Schrader. Professionals, yes, sir. And we are very 
conscious of hiring career people who are going to take their 
place. For example, just a very simple example, there is a 
fellow in my office who was the acting secretary. I have made 
him my assistant. So even when I leave, he is still there, so 
there is a lot of focus on continuity and making sure we have 
career people who are capable to lead the effort.
    The other reason we are putting so much focus on the 
regions is we want to put quality people out in the regions to 
run them. I will mention one other thing. During Hurricane 
Dean, which Administrator Paulison has talked at great length 
about a lot of the changes that have occurred in the last year. 
We saw an incredible coordination. There was cooperation across 
the board. We had the National Guard Bureau of the state of 
Texas, the regions, and we tracked that storm 5 days out and 
pre-positioned resources in way that we would have been 
completely been prepared.
    For example, Texas has about 400,000 people along the 
border with Mexico, and we were actively tracking the 
requirements for that, and had positioned resources to be able 
to evacuate those people. Now, fortunately it tracked south, 
but there was a dramatic difference in the way FEMA is leading 
this effort in coordination with all the interagency and state 
and local government. So I have a lot of confidence that we are 
moving in the right direction, sir.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you very much.
    Since we have a vote to go to, we will go ahead and close 
up now. I want to thank all the witnesses for their valuable 
testimony, and the members for their questions. The members may 
have additional questions for the witnesses. We will ask you to 
turn that back to us.
    I will ask the committee clerk to sit down with your 
committee clerk also, your counsel, to help us set up the topic 
for the--we are going to have a briefing on the questions that 
I asked. I think Mr. Dicks had some questions, and any 
additional questions that the ranking member might have.
    Mr. Dent. Would the gentleman yield?
    Mr. Cuellar. Yes.
    Mr. Dent. Would we be able to have somebody from Northern 
Command there, maybe, as well to talk about their exercise?
    Mr. Cuellar. Yes. Why don't we go ahead and do that.
    Now, what I would ask for our clerk is to set this meeting 
within 10 working days, and if you can provide us some of that 
information beforehand, we will do that, so the clerk will be 
in contact with you.
    Having no further business, the hearing is now adjourned. 
Thank you very much.
    [Whereupon, at 11:51 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Additional Questions and Responses

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                 Responses from James Arthur Langenbach

    Question 1.: Mr. Langenbach, as a State level organizer and 
participant for TOPOFF 3, please describe the level and frequency of 
planning and coordination with your Federal and local partners?
    What were you biggest challenges and success stories on the 
planning and coordination efforts both at the State and Federal level?
    Response: Congressman Cuellar, New Jersey was an equal partner with 
the other venues and the Federal Departments and Agencies in the 
planning effort for TOPOFF 3.
    From the onset, New Jersey participated in the planning working 
groups established by DHS and their contract support. Most notably, the 
State was a full partner in both the Scenario and Intelligence working 
groups. In both groups our input was solicited and adopted into the 
exercise design and conduct.
    It should be noted the State's proximity to Washington facilitated 
our participation in weekly planning meetings. Because of this, we were 
able to attend regularly scheduled as well as ad hoc meetings.
    In addition to the working group meetings, DHS and their contract 
support conducted monthly ``venue support'' meetings with the state's 
planning teams. These 2--3 day meeting provided an additional 
coordination opportunity for the state.
    At the Federal level, one challenge we encountered was the 
limitation on the number of State planners that were invited to attend 
the larger planning conferences (Initial, Mid-Term, and Final)., By 
being limited to six (6) New Jersey planners we were unable to include 
planners from the county and local level. This limitation carried 
forward to the three (3) National Seminars where again we were limited 
six (6) participants.
    We were challenged at the state level to mimic the Federal working 
groups, owing to the fact that we had a limited number of full-time 
exercise planners, with the majority of our planners balancing their 
time between TOPOFF and their ``day jobs''.

    Question 2: Mr. Langenbach, in your testimony you outline the 
Memorandum of Agreement (MOA's) with Federal and other State partners, 
such as the State of Connecticut for TOPOFF 3.
    What role did you play in this and what level of guidance did the 
Department of Homeland Security provide to you concerning MOA's?
    Congressman Cuellar, as one of the State's principal planners I was 
involved in the MOA meetings with DHS and the State TOPOFF team. The 
MOA negotiations were the responsibility of the Office of the Attorney 
General and the State's Executive Planning Group (senior 
representatives from the State agencies participating in TOPOFF).
    We began the MOA discussions early on in the planning process. Once 
again New Jersey was fortunate in having Mr. Robin, ``Butch'' Colvin as 
our DHS venue lead, as Mr. Colvin was also the TOPOFF Exercise 
Director. He facilitated the MOA discussions and was able to assist the 
state's planning team through the MOA process.

    Question 3.: Mr. Langenbach, based on your past participation in 
TOPOFF 3 and your expertise, to what degree did the Department of 
Homeland Security seek your input in the planning stages for TOPOFF 4?
    Also, to your knowledge, has the Department contacted your State 
officials to discuss the new National Exercise Program?
    Congressman Cuellar during the initial planning for TOPOFF 4, DHS 
sought to utilize T-3 planners from New Jersey and Connecticut as 
``mentors'' to the T-4 venues. We were invited to, and participated in, 
the Concepts and Objectives and Initial Planning conferences.
    However, due to what were explained as funding issues, our 
participation in subsequent planning meetings was curtailed.
    From New Jersey's standpoint we continued to assist the T-4 venues 
by providing planning documents, etc from our exercise. We also 
facilitated conference calls with the planning teams from Arizona and 
Portland as a means to share our experiences. With the Guam venue the 
information sharing was less formal but no less extensive.
    In addition, the Association of State and Territorial Health 
Officers (ASTHO) conducted a planning seminar to assist the T-4 venues 
and New Jersey was invited to share lessons learned.
    Individuals from the state's exercise teams have been involved with 
the NEXS development and have attended planning workshops. In addition, 
we worked with DHS on the HSEEP Toolkit project both in development and 
the Beta testing.

    Question 4.: Mr. Langenbach, in your written testimony you state 
that, ``the evaluation portion is every bit as important as the conduct 
of the exercise itself.'' Your State spent a considerable amount of 
time and dedication to evaluation and collecting and analyzing data and 
the actions of the participants in response to the scenario presented. 
You should be commended on developing your own after-action report and 
improvement action plan.
        <bullet> Toward that end, did participating in TOPOFF afford 
        the impetus to move forward on initiatives that otherwise would 
        have been stalled due to lack of attention or resources? And 
        were you able to learn from your Federal partners in regards to 
        their after action report?
    Response: Congressman Cuellar, in certain regards while the state 
was already in the midst of planning for the mass prophylaxis of the 
state's population, our inclusion in TOPOFF 3 accelerated that process. 
In November of 2004 we conducted a full scale exercise with the CDC to 
test our plans. Lessons learned from that exercise were incorporated in 
out T-3 exercise play.
    As I discussed in my testimony, our evaluation team was given 
access to the data collected by the Federal evaluators. This data 
proved invaluable to our after-action process.
    The State was provided a draft copy of the Federal after-action 
report and asked for comment. Each agency did so and those comments 
were provided to DHS for inclusion in the final report.
    At this time we are assessing the Federal After-Action Report and 
at the same time cross walking it with our own AAR. That analysis is 
expected to be completed by years end.

     Questions from the Honorable Charles W. Dent, Ranking Member, 
  Subcommittee on emergency Communications, Preparedness, and Response

    Question 5.: Did New Jersey use Federal resources such as Homeland 
Security Grant Program funding, to participate in TOPOFF 3? If so, how 
much? What State resources were used to participate?
    Response: Congressman Dent, New Jersey funded our participation in 
TOPOFF 3 from multiple sources:




          ODP FY 02 Exercise Allotment                   $177,373.00
          ODP FY 03 Exercise Allotment                   $408,407.00
                             CDC FY 05                   $220,000.00
                            HRSA FY 05                   $161,000.00


    The State's contribution came in the form of in-kind services, 
particularly the salaries of the planners involved in T-3. State 
agencies adjusted work schedules to minimize overtime costs for 
participants and exercise staff during the week of full scale play.
    In addition, although we provided funds to our eighty-four (84) 
hospitals it was a minimal amount that didn't come close to 
compensating them for the expenses they incurred during the exercise, 
the balance coming from their own operating budgets.
    Controllers and evaluators were recruited from municipal, county, 
state departments and agencies, as well as the private sector with the 
understanding that any costs would be borne by the sending agency.
    After having participated in TOPOFF 3, what changes would you 
suggest to enhance the TOPOFF exercise program?
    Congressman Dent, one of the challenges of exercise planners is the 
creation of a realistic environment which duplicates situations that 
responders would be expected to encounter in a real world event. One of 
the catch phrases of T-3 was ``We will make this as real as possible, 
without getting anybody hurt''.
    As I discussed during my testimony, TOPOFF, as the premier National 
exercise should replicate, a closely as possible, the response which 
would be expected during an actual event. Toward that end the flow of 
activities should play out in real time with little or no time 
compression. During T-3 we attempted to ``squeeze'' multiple activities 
into a short, unrealistic, amount of time.
    In addition, the ability to provide assets to requesting states 
should be tested and not notionalized (i.e. it is my understanding that 
during T-4 Guam, requested the assets of the Strategic National 
Stockpile and its receipt was simulated).
    Finally, equally challenging for exercise planners is the 
engagement of senior officials for the entire course of the exercise. 
We understand that senior officials at all levels of government are 
pressed for time but if we hope to replicate the real world decision 
making process which would occur during an event those senior officials 
need to be engaged for the duration of the exercise.

      Questions from the Honorable Henry Cuellar, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness, and Response

              Responses from Major General Steven Saunders

                        Nation Exercise Program

    Question 1.: In your written testimony you stated that the biggest 
challenge the National Guard has faced in achieving a National Exercise 
Program fully integrated with the Department of Defense and other 
interagency partners has been resources.
    Can you elaborate on this statement and describe how this lack of 
resources has affected your ability to partake in exercises?
    Response: Our recent success with the Doctrine, Organization, 
Training, Materiel, Leadership and Education, Personnel, and Facilities 
(DOTMLPF) Change Recommendation (DCR) process and the resulting Joint 
Requirements Oversight Council Memorandum (JROC-M) provides resources 
for planning, exercise development and exercise delivery for Vigilant 
Guard and the Joint Task Force (JTF) Commander Course over the next 5 
fiscal years. Unfortunately, it does not provide funding for state 
participation. In addition, National Guard members are precluded by 
current legislation from training or conducting exercises for 
civilians. The Country will benefit from a way to use existing National 
Guard funding or a separate funding stream that allows NG members to 
work with and strengthen relationships at the regional/state levels 
and, where appropriate, locally. This includes the ability for 
Department of Homeland Security (DHS) and other federal agencies to 
send money to the National Guard Bureau (NGB), not the Department of 
Defense (DoD), under the Economy Act when appropriate.

                      DHS and NORTHCOM HS Program

    Question 2.: Large exercises take many months, if not years to 
plan. Organizations need to know exercise schedules well in advance in 
order to make sure they are properly resourced.
    In your experience, has the Department of Homeland Security and US. 
Northern Command established a homeland security exercise program that 
facilitates participation by the National Guard? To what degree does 
the National Guard participate in the National exercises, led by FEMA? 
What is the level of collaboration, sharing of best practices?
    In your experience, has the Department of Homeland Security and US. 
Northern Command established a homeland security exercise program that 
facilitates participation by the National Guard?
    Response: Yes. However, the process for involving the National 
Guard could be improved significantly by including the National Guard 
Bureau (NGB) as a full member of the Homeland Security Council Plans, 
Training, Exercise and Evaluation Policy Coordination Committee. In 
addition, the National Guard should be represented on the Department of 
Homeland Security (DHS) chaired National Exercise Program Executive 
Steering Committee.
    At the state National Guard level, we have Vigilant Guard exercise 
series. In addition, the National Guard participates at the National 
level in TOPOFF, soon to be National Level Exercise, exercises and many 
states have been involved in United States Northern Command's 
(USNORTHCOMs) Ardent Sentry/Vigilant Shield exercise series.
    Currently all vested agencies are working extremely hard to 
coordinate and integrate their training and exercise programs. After a 
few years of maturation by all of us, we now have fundamental 
agreements on how and when we synchronize our efforts. Sometimes these 
efforts are specifically state (or Title 32) oriented or Title 10 
(federally) focused, but the majority of all our training and exercise 
venues are designed to bring the capabilities and talents of all 
parties to bear on the scenario or event that threatens the US.
    To what degree does the National Guard participate in the National 
exercises, led by FEMA?
    What is the level of collaboration, sharing of best practices?
    Response: The National Guard has not participated as well as we 
should in Federal Emergency Management Agency (FEMA) exercises, but 
this is improving. For example, during the Hurricane Exercise (HUREX) 
last May, National Guard (NG) equities were an afterthought.
    During TOPOFF 4 in October, we were more involved in the planning 
and embedded in a variety of venues. I expect this joint participation 
to continue to improve.
    Each year, the NG conducts four regional or major exercises 
(Vigilant Guard). Two of these exercises are focused on an event that 
affects 2--4 states in a particular region. Although there is certainly 
participation from federal entities, these regional exercises are 
designed to test specific capabilities, selected by the Adjutants 
General and emergency managers of the states and their neighbors.
    In the future (2009 and beyond), the other two Vigilant Guard 
exercises will be aligned, planned, executed and debriefed in full 
cooperation with USNORTHCOM, FEMA, and other Federal agencies, etc. 
with the primary objective of identifying any gaps that may exist when 
local and state resources are exhausted and federal assistance is 
required.

                           NEP and Resources

    Question 3.: As we understand it, one of the biggest challenges the 
National Guard has faced in achieving a National Exercise Program fully 
integrated with the Department of Defense and other interagency 
partners has been resources.
    Can you elaborate on how this lack of resources has affected your 
ability to partake in exercises?
    Response: Our recent success with the Doctrine, Organization, 
Training, Materiel, Leadership and Education, Personnel, and Facilities 
(DOTMLPF) Change Recommendation (DCR) process and the resulting Joint 
Requirements Oversight Council Memorandum (JROC-M) provides resources 
for planning, exercise development and exercise delivery for Vigilant 
Guard and the Joint Task Force (JTF) Commander Course over the next 5 
fiscal years. Unfortunately, it does not provide funding for state 
participation. In addition, National Guard members are precluded by 
current legislation from training or conducting exercises for 
civilians. We need a way to use existing funding or we need a separate 
funding stream that allows National Guard (NG) members to work with and 
strengthen relationships at the regional/state levels and, where 
appropriate, locally. This includes the ability for Department of 
Homeland Security (DHS) and other federal agencies to send money to the 
National Guard Bureau (NGB), not Department of Defense (DoD), under the 
Economy Act when appropriate. Your assumption is correct based on the 
aforementioned realities.

                          Independent Exercises

    Question 4.: Currently, the Department of Homeland Security, the 
National Guard and State Guard Units, the US Northern Command, and 
other government entities are still running several of their own 
independent exercises.
    Why is this? Are we duplicating efforts?
    Response: To some extent, yes, but it is necessary. All 
organizations need opportunities to exercise their particular roles and 
responsibilities, in a vacuum if you will, in order to identify and 
correct existing or known internal limitations. This only enhances the 
more collaborative efforts at a later date. The reality of the 
situation in our homeland is that there are simply too many entities 
with a stake in Homeland Defense (HD) and Consequence Management (CM) 
to have a coordinated effort each and every time. To forego internal or 
more focused exercises while waiting for the larger, national level 
exercises would surely be considered an opportunity missed.

    If multiple government organizations each ``own'' their own 
exercise, isn't it possible that emergency responders and other key 
participants might grow weary of fully participating?
    Response: That is a valid concern for our awareness and 
consideration for future operations. However, at this point in time, 
there are plenty of local and state responders that need an opportunity 
to integrate their efforts with federal responders. If we maintain our 
current coordinated planning efforts, I am sure we can avoid exhausting 
certain low density-high demand assets of any given state.

    Questions from the the Honorable Charles Dent, Ranking Member, 
  Subcommittee on Emergency communications, Preparedness, and Response

    Question 5: Do you believe there is currently duplication of effort 
between the training and exercise programs of DHS and DoD? If so, what 
recommendations would you make to maintain effectiveness but minimize 
unnecessary duplication?
    Response: Yes, to a limited, but perhaps, necessary extent. We 
continue to mature our own organizations and grow in our understanding 
of each agency's role, responsibility, and capability; we will 
certainly begin to minimize what little, but necessary, redundancy that 
exists today. This end state will most certainly be attained quicker if 
once those roles and responsibilities are clearly defined for all 
parties, each party honors them and remains ``in their lane.''
    All organizations need opportunities to exercise their particular 
roles and responsibilities, in a vacuum if you will, in order to 
identify and correct existing or known internal limitations. This only 
enhances the more collaborative efforts at a later date. The reality of 
the situation in our homeland is that there are simply too many 
entities with a stake in Homeland Defense (HD) and Consequence 
Management (CM) to have a coordinated effort each and every time. To 
forego internal or more focused exercises while waiting for the larger, 
national level exercises would surely be considered an opportunity 
missed.

                        NGB/NORTHCOM Interaction

    Question 6.: Please explain how the National Guard Bureau interacts 
with U.S. Northern Command (NORTHCOM) with respect to homeland security 
exercises.
    Response: As directed by Joint Requirements Oversight Council 
Memorandum 263-06 dated 21 December 2006, United States Northern 
Command (USNORTHCOM) in collaboration with the National Guard Bureau 
(NGB) and United States Joint Forces Command (USJFCOM) established a 
National Guard joint training and exercise program at USNORTHCOM. These 
programs were directed to be synchronized with existing combatant 
command exercises, while leveraging existing training capabilities. 
Four existing National Guard Programs were identified in this directive 
to migrate to USNORTHCOM to establish initial operational capability 
not later than 1 October 2007; the National Guard Vigilant Guard 
Exercise Program, the Joint Task Force (JTF) Commander Training Course, 
the JTF/Joint Force Headquarters (JFHQ) Staff Training Course and the 
Chemical, Biological, Radiological, Nuclear, and High Yield Explosives 
(CBRNE) Collective Training Program. All of these programs directly 
interact with USNORTHCOM, the 54 States and Territories and all local, 
state and federal agencies associated with Defense Support to Civil 
Authorities in the areas of Homeland Security and Homeland Defense. 
Each program is led by a team of National Guard personnel located at 
North American Aerospace Defense Command (NORAD)--USNORTHCOM and the 
National Guard Bureau (NGB.) This first of its kind integrated 
partnership provides training and exercises for National Guard (NG,) 
Active Duty and interagency personnel. The program focuses on Homeland 
Defense and Defense Support to Civil Authorities (DSCA) missions across 
the spectrum of operations to meet Joint Interagency Training 
Capabilities (JITC) DOTMLPF (Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities) Change 
Recommendation (DCR) requirements.

Question from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                     Response from Dennis Schrader

    Question 1.: Mr. Schrader, as you know, this Committee remains 
concerned about the Department's unwillingness to share comprehensive 
After Action Reports or ``lessons learned''--leaving our States and 
localities at a disadvantage to prepare, prevent, and coordinate the 
necessary response to events that threaten the safety of the American 
people.
    Going forward, how does the ``new FEMA'' plan to share these 
documented lessons learned with its State, local, and non-governmental 
participants?
    Given that thousands of first responders use their own resources, 
personnel and play an integral role in TOPOFF exercises, how will the 
Department ensure that learned lessons, best practices, and 
recommendations are documented and easily shared with them?
    Response: The Department remains committed to sharing exercise 
information with its preparedness partners. After Action Reports (AARs) 
often include sensitive operational details that prevent them from 
being shared widely. The Department of Homeland Security (DHS) has the 
responsibility to assure all exercise participants that issues and 
information provided for an AAR are safeguarded. The Department uses 
the Lessons Learned Information Sharing (LLIS.gov) system. LLIS.gov is 
the Department's primary tool for sharing lessons learned, best 
practices, innovative ideas, and preparedness information for homeland 
security and emergency response professionals. LLIS.gov is not only a 
repository for information, but also a network that enables homeland 
security and emergency response professionals from across the country 
to share their knowledge and expertise in a secure, online environment 
with one another. Finally, the Department will typically provide 
information that can be shared publicly by posting press releases to 
its public website.
    In addition to AARs produced by the Federal government, States and 
Territories that participate in Top Officials (TOPOFF) exercises create 
their own AARs that focus on issues and objectives directly related to 
their respective exercise play. These documents are incorporated into 
the Federal TOPOFF AAR as annexes. They also give an appropriate level 
of focus to issues specific to State and local authorities. These 
documents may be posted to LLIS.gov for sharing with the broad 
responder community. For example, after TOPOFF 3, both Connecticut and 
New Jersey provided their after action materials to LLIS.gov.
    Members actively participate in LLIS.gov by sharing their ideas, 
information, and knowledge. LLIS.gov strongly encourages members to 
submit plans, procedures, AARs, and other documents to be posted on the 
network. Members can contact LLIS.gov about potential lessons learned, 
best practices, practice notes, or useful anecdotes for inclusion on 
the network. Further, members can also post comments on specific 
LLIS.gov content.
    LLIS.gov serves as the repository for homeland security AARs that 
have been approved for posting. Members can access and search hundreds 
of AARs from incidents and exercises. In addition, LLIS.gov houses a 
vast library of homeland security plans, procedures, templates, and 
tools from jurisdictions across the Nation. These documents provide 
LLIS.gov members with a valuable resource when they are developing or 
revising their organization's plans and procedures.
    In the case of TOPOFF 4, DHS/FEMA's National Preparedness 
Directorate (NPD) will ensure key lessons learned and best practices 
from the TOPOFF 4 AAR are provided for posting to LLIS.gov. The TOPOFF 
4 after action review process will include data collection, various 
analyses, strengths, and general findings identified from the exercise. 
The final AAR/Improvement Plan (IP) will be disseminated to exercise 
participants and materials will be posted to LLIS.gov.
    The NPD will coordinate with DHS/FEMA leadership to provide 
briefing materials to the House Homeland Security Committee, including 
a letter to Chairman Thompson explaining the general and specific 
TOPOFF 4 issues associated with developing AARs. These materials will 
articulate what steps the NPD is undertaking to address the need for 
publicly releasable documentation.

    Question 2.: How does the Department of Homeland Security determine 
the scenarios that are exercised?
    For example, the last three TOPOFF exercises have focused on 
plagues, mustard gas releases and a dirty bomb release.
    At what point in the planning of the exercises are the State and 
locals involved in formulating the scenarios and ensuring that their 
systems, processes and people are exercising a probable incident to 
their specific region?
    Response: The National Exercise Program's (NEP) National Level 
Exercises (NLEs) are selected in accordance with the NEP Implementation 
Plan and are based on the National Planning Scenarios. NLEs feature 
realistic, plausible scenarios; address U.S. Government strategic--and 
policy-level objectives; and challenge the national response system. 
Scenarios are approved by the Secretary of Homeland Security in 
coordination with the heads of other relevant departments and agencies. 
States that are hosting TOPOFF venues are consulted on scenario 
selection early in the design process to ensure their exercise 
objectives can be met by the candidate scenarios.
    The Federal Emergency Management Agency's (FEMA) National 
Preparedness Directorate (NPD) will coordinate national level 
priorities with State priorities in developing the National Exercise 
Program 5-Year exercise schedule.
    Through a series of regional training and exercise workshops hosted 
by FEMA Regional Administrators, NPD will ensure Federal as well as 
State and local objectives are met in selecting the focus, objectives, 
scenarios, participants, locations, and times for various NPD 
exercises. This process will take place prior to the actual planning 
cycle for an NPD exercise.

    Question 3.: Currently, the Department of Homeland Security, the 
National Guard and State Guard Units, the US Northern Command, and 
other government entities are still running several of their own 
independent exercises.
    Why is this? Are we duplicating efforts?
    If multiple government organizations each ``own'' their own 
exercise, isn't it possible that emergency responders and other key 
participants might grow weary of fully participating?
    Response: Exercises provide opportunities to conduct and test 
training, observe plans and procedures in action, and to ensure 
previous lessons learned and their corresponding corrective actions are 
adhered to. Government organization share the common mission of 
ensuring the Nation is able to prevent, protect against, respond to, 
and recover from catastrophic events. Given this common mission, the 
National Exercise Program (NEP) was established to coordinate and frame 
exercise priorities. The NEP accomplishes this by coordinating 
priorities within the Federal Interagency and then coordinating those 
priorities with States and locals and the private sector thus 
generating an integrated national exercise effort.
    The NEP Implementation Plan defines procedures intended to resolve 
any potential duplication of effort, and to synchronize the efforts of 
organizations currently competing for a limited number of 
jurisdictions, departments, and agencies to participate in exercises. 
While the NEP does not preclude or replace individual departments' and 
agencies' exercise programs, it does aim to align activities (where 
feasible) and to limit the number and scope of conflicts that occur in 
scheduling. Coordination of the NEP is supported by broad interagency 
participation through the NEP Executive Steering Committee (ESC). The 
NEP ESC is a forum used to prepare and coordinate annual NEP exercise 
planning guidance derived from a strategic review of risks (threats, 
hazards, vulnerabilities, and operational risks) and from a five-year 
schedule of NEP exercises. Because the NEP reflects U.S. government-
wide priorities, the annual NEP guidance enables departments and 
agencies to align their exercise programs to these priorities. In other 
words, the NEP ensures priorities are tested through NEP-approved 
exercises. By requiring the participation of the various departments 
and agencies involved in preparedness, the NEP improves the ability to 
test capabilities through a more realistic exercise environment.
    Departments and agencies may use internal exercises to prepare 
themselves for participating in an NEP exercise. Such exercises are 
considered ``building blocks.'' Additionally, departments and agencies 
may propose an exercise for inclusion into the NEP Five-Year Schedule. 
Exercises proposed for inclusion in to the NEP Five-Year Schedule are 
deliberated on by the NEP ESC and approved through the policy 
coordination process. The NEP process categorizes exercises into 
``tiers'' that reflect priorities for interagency participation. A 
synopsis of the various tiers follows.
    Tier I Exercises (Required). Tier I Exercises are centered on U.S. 
government-wide strategy and policy-related issues. They are executed 
with the participation of all appropriate department and agency heads 
or their deputies and all necessary operations centers. NLEs and 
Principal Level Exercises constitute Tier I; thus there are five NEP 
Tier I exercises annually.
    Tier II Exercises (Recommended). Tier II Exercises are focused on 
strategy and policy issues supported by all appropriate departments and 
agencies either through the National Simulation Center or as determined 
by each department or agency's leadership. Tier II exercises are 
endorsed through the NEP process as meriting priority for interagency 
participation. Tier II exercises take precedence over Tier 3 exercises 
in the event of resource conflicts.
    Tier III Exercises (Permitted). Tier III Exercises are other 
Federal exercises focused on operational, tactical, or organization-
specific objectives and do not require broad interagency headquarters-
level involvement to achieve their stated exercise or training 
objectives. Participation is at the discretion of each department or 
agency.
    Tier IV Exercises. Tier IV Exercises are exercises in which State, 
territorial, local, and/or tribal governments, and/or private sector 
entities, are the primary audience or subject of evaluation.

    Question 4.: To what extent do the Federal, State, local and non-
governmental participants have knowledge of the scenario prior to the 
exercise and once the exercise begins?
    Response: Both prior-notice and no-notice exercises are addressed 
by the National Exercise Program (NEP). The NEP Implementation Plan 
requires a no-notice exercise at least once within a NEP Five-Year 
Strategic Exercise Cycle. Details of the exercise will be developed in 
an appropriately classified or protected environment by a small group 
of planners and key leaders.
    Unlike Top Officials (TOPOFF) 2000, during TOPOFFs 2, 3, and most 
recently 4, the general scenario threats were known to the 
participants. Participants did not have knowledge of the specific 
scenario or how it would unfold once the exercise started. This was a 
deliberate design decision to maximize learning over the course of 
building block exercises while preserving the spontaneity and realism 
of the final, culminating full-scale exercise.
    Over the 18--24 month cycle of TOPOFF events, participants were 
able to review their policies, plans, and procedures as they helped 
design the exercise. By knowing the exercise scenario, planners were 
able to conduct their reviews and develop meaningful exercise 
objectives and evaluation guides, which can improve the eventual 
evaluation and exercise's results. Participants were able to learn 
about the proposed threat and identify gaps, shortfalls, and best 
practices within their own policies, plans and procedures. In these 
exercises, participating States and territories unanimously agreed they 
learned as much if not more from the planning process as they did from 
participating in the full-scale exercise. Allowing prior knowledge of 
the exercise scenario gave planners at all levels, Federal, state, and 
local, an opportunity to evaluate the efficacy of their department or 
agency's plans. In other words, departments and agencies were able to 
use the evaluation of their plans, policies, and procedures prior to 
the exercise as an opportunity to identify whether or not their 
respective office had the necessary plans, policies, or procedures, 
and, if so, whether those were going to be adequate in addressing the 
scenario. This evaluation gave departments and agencies an opportunity 
to identify gaps and, if changes were made, test such changes to their 
own plans, policies, and procedures.

    Question 5.: Please explain how the National Exercise Program will 
incorporate continuity of operations (COOP) and continuity of 
government (COG) exercises. Will COOP and COG exercises also be planned 
using a five year schedule? How will the NEP ensure that participating 
Federal departments and agencies adequately document their 
participation in these exercises? Will the after-action reporting of 
COOP and COG exercises differ from other national security and homeland 
security exercises?
    Response: The National Exercise Program (NEP) is the principal 
mechanism for examining the preparation of the U.S. Government (USG) 
and its officers to execute the full range of preparedness 
capabilities. Continuity of Operations (COOP) and Continuity of 
Government (COG) represent two such capabilities that can be integrated 
as testable objectives into NEP-sanctioned events. Using a system of 
tiered National Level Exercises (NLEs) and its 5-year schedule, the NEP 
allows the USG to integrate efforts to train and rehearse those 
critical capabilities in conjunction with ongoing, high-priority 
exercise events. Through the NEP, COOP/COG requirements directed by 
National Security Presidential Directive-51/Homeland Security 
Presidential Directive-20 (NSPD-51/HSPD-20) are therefore met.
    When evaluating continuity capabilities, the performance of Federal 
departments and agencies will be appropriately documented and reported 
in accordance with the Homeland Security Exercise and Evaluation 
Program (HSEEP) and consistent with appropriate classification 
requirements for critical essential function vulnerabilities. Some 
HSEEP tools may be implemented in the after action reporting process 
for continuity capability issues. Due to the sensitivities inherent 
within continuity capabilities, continuity lessons learned and 
corrective action plans would not be posted to the Lessons Learned 
Information Sharing network (LLIS). However, strategic continuity 
capabilities issues will be elevated to the Interagency (HSC Deputies 
Committee) using the Corrective Action Program (CAP) process. Further, 
continuity capability issues that may be less strategic in nature but 
still represent an area for improvement may also use the CAP process to 
manage the remediation of those issues internally within the 
responsible department or agency.

    Question 6.: The Department plans to use the Lessons Learned 
Information Sharing website (LLIS.gov) to help distribute lessons 
learned and best practices. How is the Department publicizing this 
website to ensure that emergency management officials and first 
responders across the country are aware of this resource?
    Response: Since the launch of Lessons Learned Information Sharing 
(LLIS.gov) in April 2004, the Department of Homeland Security (DHS) has 
sought to raise awareness of the program, increase membership, and 
encourage usage among its desired audience of emergency response and 
homeland security professionals through a coordinated outreach and 
awareness strategy. These efforts have increased LLIS.gov membership to 
more than 40,000 professionals from all relevant disciplines, levels of 
government, and all 50 states and Territories. Essential components of 
this strategy include attending conferences and meetings, forming 
strategic partnerships, publishing articles, and sending regular 
updates to LLIS.gov's membership.
    LLIS.gov representatives attend numerous conferences annually to 
give presentations, demonstrate the system, distribute information, and 
network with other individuals and groups involved in homeland security 
throughout the country. LLIS.gov staff members also regularly and 
proactively contact and publish in homeland security and emergency 
management publications. LLIS.gov representatives form partnerships 
with groups, agencies, and associations to further information sharing 
by securing mentions in their newsletters, list-serves, and grant 
guidance. Further, LLIS.gov is developing partnerships with the DHS 
Centers of Excellence, the Federal Emergency Management Agency's (FEMA) 
Emergency Management Institute, and other homeland security training 
programs to better incorporate LLIS.gov into planning, training, and 
exercise activities. The use of LLIS.gov during and after Top Officials 
4 further publicizes and encourages use of this resource.

    Question 7.: Observers of previous TOPOFF exercises have noted that 
after action reporting may have been subject to selective editing as 
information moved up the chain of command. In other words, some 
important information may have been ignored in order to provide a 
better performance assessment of the exercise.
    How does the Department's after action reporting process ensure the 
accuracy of information used in assessments and evaluations?
    Response: After action reports (AARs) for exercises receive 
numerous reviews by participants and leadership to ensure accurate 
reconstruction and analysis of exercise events.
    The need to develop an accurate and detailed AAR is crucial to 
understanding an exercise's results and, in turn, learning from what 
was exposed, whether it is an identified strength or an area for 
improvement for future exercises. TOPOFF exercises employ robust and 
rigorous evaluation and control processes. Every participating agency 
from every level of government provides evaluations, which serves as a 
check and balance on accuracy and comprehensiveness of reporting. 
Evaluations are thorough and provide a historically accurate record of 
performance. NPD emphasizes to exercise participants the importance of 
the Exercise Evaluation Guides, and the reconstruction effort. The 
accuracy and credibility of an AAR rests on the level of detail 
provided in the reconstruction materials and observations by exercise 
personnel (controllers, observers, and planners), from which the AAR is 
developed.
    The NPD follows the Homeland Security Exercise and Evaluation 
Program methodology in developing AARs/Improvement Plans (IP) that 
identify the strengths of the exercise and the areas for improvement 
for the National Exercise Program's National-level Exercises. 
Additionally, these reports guide future efforts to adopt the lessons 
learned from an exercise. If, after a stage of review, a report's 
content has been compromised, the issue will be deliberated by the NPD 
and any issues arising from those discussions will be taken to FEMA 
and/or DHS leadership.

    Question 8.: Are States and localities required to conduct 
exercises to receive Federal homeland security grant funds?
    Does the Department review the performance of State and local 
agencies in exercises? If so, how is this information used? Will it be 
used in the Federal Preparedness Report required by last year's reform 
legislation to assess the Nation's level of preparedness?
    Response: States and localities are required to conduct at least 
one discussion-based and one operations-based exercise per year as well 
as a Training and Exercise Plan Workshop (T&EPW). The T&EPW aligns 
training and exercises with National Priorities and State Priorities to 
ensure States and localities are validating the training, equipment, 
and other resources necessary to improve capabilities. Further, States 
are also required to submit their multi-year Training and Exercise Plan 
to the appropriate preparedness officer within the Federal Emergency 
Management Agency.
    DHS periodically reviews information from homeland security grant 
exercises and encourages exercise outputs, specifically After Action 
Report/Improvement Plans (AAR/IPs), be used by States to support grant 
justifications and enhancement plans. For example, during annual 
programmatic grant monitoring of each State, a review of the State's 
investments (from their Homeland Security Grant Program application), 
goals and objectives (from their Homeland Security Strategy), and 
responses to National Priority questions helps DHS assess each State's 
exercise program. Information from exercises is also reviewed for 
broader applicability within the homeland security community and may 
result in generation of lessons learned and best practices.

                                 <all>

</pre></body></html>
